<html>
<title> - THE SECURE BORDER INITIATIVE: SBINET THREE YEARS LATER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     THE SECURE BORDER INITIATIVE:
                        SBINET THREE YEARS LATER

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON BORDER,
                 MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2009

                               __________

                           Serial No. 111-35

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
57-597                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012010


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. Lanier Avant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Conner, Minority Staff Director

                                 ______

      SUBCOMMITTEE ON BORDER, MARTIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
ANN KIRKPATRICK, Arizona             CANDICE S. MILLER, Michichgan
BILL PASCRELL, JR., New Jersey       PETER T. KING, New York (Ex 
AL GREEN, Texas                      Officio)
ERIC J.J. MASSA, New York
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                     Alison Northop, Staff Director

                          Nikki Hadder, Clerk

                Mandy Bowers Minority Subcommittee Lead

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4

                               WITNESSES

Chief David Aguilar, U.S. Border Patrol, U.S. Customs and Border 
  Protection:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8
Mr. Mark Borkowski, Executive Director, Secure Border Initiative, 
  U.S. Customs and Border Protection:
  Joint Prepared Statement.......................................     8
Mr. Timothy E. Peters, Vice President and General Manager, Global 
  Security Systems, The Boeing Company:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Richard M. Stana, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                APPENDIX

Questions From Chairwoman Loretta Sanchez........................    53


                     THE SECURE BORDER INITIATIVE:
                        SBINET THREE YEARS LATER

                              ----------                              


                      Thursday, September 17, 2009

             U.S. House of Representatives,
                 Subcommittee on Border, Maritime, 
                       and Global Counterterrorism,
                            Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Thompson, Jackson Lee, 
Cuellar, Kirkpatrick, Pascrell, Green, Souder, McCaul, 
Bilirakis, Rogers, and Miller.
    Also present: Representative Carney.
    Ms. Sanchez. [Presiding.] Good morning. The subcommittee 
will come to order. The subcommittee is meeting today to 
receive testimony on the Secure Border Initiative, SBInet, 3 
years later. I would like to at this point ask unanimous 
consent that Mr. Carney, a member of the full committee be 
permitted to sit and question the witnesses at today's hearing. 
Hearing no objection.
    Good morning. Today's--hello, Chief--today's hearing will 
further examine the Department of Homeland Security's Secure 
Border Initiative, physical infrastructure fencing as well as 
the virtual fence known as SBInet.
    Thank you to our witnesses for being here today, many of 
you have been before us before and, in particular, Mr. Stana, 
thank you for your continued frank and honest assessment of 
what is happening out there on this initiative.
    The witnesses' testimony and responses to our questions are 
critical parts of the oversight this subcommittee continues to 
conduct on the Secure Border Initiative and SBInet. In fact, 
many of the members of this committee have had an opportunity 
once or twice now to go over and take a look not only at the 
physical fence in different portions, but also at the virtual 
fence and what is going on with SBInet.
    Given that the Boeing SBInet contract is expiring soon, I 
think that this is a good opportunity for us to catch our 
breath and see what is going on and see whether we have any 
movement on this program or if there is a lack of progress in 
the program.
    And I am particular concerned by SBInet program's ongoing 
struggle with transparency and what I see as a pattern of 
delayed planned development. For instance, in May of 2008, I 
had the opportunity, along with many members of the 
subcommittee, to travel to the Tucson sector and to review 
SBInet's Project 28 and to hear about the beginning stages of 
AJO-1 and TUCSON-1. I think the chief accompanied us on that.
    I was assured that these new projects could be fully 
operational and able to be accepted by the Department of 
Homeland Security by the end of 2008, and I am extremely 
disappointed that the new deadlines estimate that TUCSON-1 will 
be December 2009 and that AJO-1 will be ready in June of 2010.
    Based on my past experience with the missing of deadlines 
on this project, I have a real hesitancy to believe that these 
deadlines are even going to be met, these new ones.
    In the last series of hearings on this topic the 
subcommittee was given hard dates and assurances that deadlines 
for specific SBInet projects would be met by Boeing, and yet 
weeks later, they were pushed back. SBI's full deployment along 
the southwest border, now estimated by Boeing and CBP to occur 
in 2016, will be 7 years after the original contract end date 
of 2009.
    This situation is incredibly troubling since in the 
meantime, our Border Patrol agents continue to use older and 
less capable technology. We have maintenance issues, and more 
importantly, there is more danger to our Border Patrol as time 
moves on.
    Further, as a member of the Congress who is very concerned 
about fiscal responsibility, it is hard for me to believe that 
DHS would award a contract of $1.1 billion over 3 years, and 
continue to award task orders without viable results.
    Moving to the other half of the Secure Border Initiative, 
the physical border fence, it has also risen in cost. What used 
to cost us $3.5 million a mile is now at $6.5 million a mile, 
and vehicle fencing has gone from $1 million to $1.8 million 
per mile.
    And that is sort of unbelievable, considering that 
construction costs because, you know, we haven't been 
building--construction has been in the dumps--how we could 
really justify that the cost of fencing, the vehicle and the 
pedestrian fencing, is going up so much.
    According to program dates there have been about 3,300 
breaches in the fence and it costs us about $1,300 every time 
that we have to repair them. And that being said we have yet to 
see whether or not this fencing has increased border security 
and has justified its cost. I mean, I am still waiting to 
really see that, and I know that about a year or two ago, 
Chief, you and I had a discussion about what is it really going 
to take to do this.
    And we were trying to figure out what the metrics would be, 
so I am interested to see what you think the metrics are and 
how you can justify whether these systems are working for us. 
So I look forward to your testimony and to the responses to the 
many questions that I have. And I know that you can see from 
the interest here that we all have so many questions.
    I will now let my ranking member, Mr. Souder from Indiana, 
for his opening statement, who is also, I know, very concerned 
about this issue.
    Mr. Souder. Thank you, Madam Chair. Securing our borders, 
closing vulnerabilities and gaining operational control: this 
is what was promised to Congress and to the American people 
when SBInet was announced 4 years and 9-1/2 months ago.
    It is hard to be optimistic when we sit here today and have 
partial technology deployed along just 23 miles of the 
southwest border and a few northern border pilot sites set to 
begin in the next month or two.
    Over $1 billion has been allocated for SBInet, but it seems 
that very little progress has been made. It has been very slow. 
I think it is important to note for the past 3 years we have 
been asking for a timeline for SBInet deployment and lifecycle 
costs, but they have yet to be provided.
    Similarly, there is no picture of the performance metrics 
and parameters used to judge the success of this program. It is 
hard to have Congress accurately review and conduct oversight 
over this initiative without these key pieces of data.
    Do not take this criticism as a lack of my support for the 
project and the larger goal of securing our borders. I think it 
needs to be a top priority for DHS and the administration. Now 
is not the time to waver in this commitment. To that end, I 
need to raise a concern that I have with the number of miles 
considered to be under operational or effective control.
    According to the CBP documentation, as of October 2008 
there are 625 miles of the southwest border considered to be 
under effective control. According to the fiscal year 2010 
budget justification, by the end of 2009 there should be 815 
miles under effective control.
    If these estimates are correct we will have gained 190 
miles in a little over a year. This is good news, and I think 
it can be attributed to the additional staffing and the 
construction of 630 miles of tactical infrastructure, fencing 
and vehicle barriers.
    The budget justification goes on to say that zero 
additional miles outside of the 815 are expected to be under 
effective control in 2010. How is it possible that the Border 
Patrol could come to this conclusion? What is expected to 
happen with SBInet in the next year? Are more personnel or 
fencing or the National Guard necessary? CBP needs to address 
these concerns at today's hearing.
    On Monday, U.S. law enforcement conducted an anti-terror 
operation in New York City. According to intelligence 
officials, all indications pointed to the need to intervene and 
prevent further plotting and coordination.
    While few details are known at this time as the 
investigation is ongoing, I think it is a poignant reminder 
that 8 years after September 11 terrorist attack, we are still 
a country at risk. We must remain vigilant and aggressive in 
securing our country from attacks.
    Securing our borders, closing vulnerabilities and gaining 
operational control are essential for bolstering the security 
of our nation. The SBInet program should be a cornerstone 
building block of this effort.
    I would like to add on a personal note that I was down on 
the southwest border for about a week, just short of a week, 
traveling from San Ysidro over to Nogales. I visited the 
TUCSON-1 area again, saw the towers working and on every side 
of me different people were being intercepted. I also saw the 
physical fencing; we went to about probably six different stops 
along the border.
    We have breaches in the old fencing. We do not have 
breaches in the new fencing. Also the soil in different areas 
have changed cost estimates and difficulty. They are continuing 
to adjust even in the areas where we have had the breaches.
    For example, one of the debates is can you put barbed wire 
on? The one kind of fencing in California that they are cutting 
through, where it is very expensive, which is what has been in 
the news media, can be addressed by trying to block them from 
getting to the fence, which is what they are now experimenting 
with.
    The physical fence does not secure the border. The physical 
fence stops vehicles. It stops larger groups. It slows people 
down so that as we move the technology behind it we can move 
people in behind if it is in a mountainous area, they can catch 
them as they move to the road.
    If it is in a flat area the rate of speed that they are 
coming across is slowed significantly down, and it is the 
combination, then, with enough agents, and we have been 
plussing up the Border Patrol with which to go get the 
different groups then to get them to different places.
    And we have to see how we are going to increase this 
because, quite frankly, I doubt if an immigration bill is going 
to be able to move through this Congress until we have 
increased the number of miles that are currently projected, 
secured under effective control, because any kind of major 
immigration reform will lead to additional pressures on the 
border unless we have a higher percent under effective control. 
I yield back.
    Ms. Sanchez. I thank the ranking member, and the Chair now 
recognizes the chairman of the full committee, the gentleman 
from Mississippi, Mr. Thompson, for an opening statement.
    Mr. Thompson. Thank you, Madam Chairman, and I welcome our 
witnesses to this hearing today. Today's hearing on the Secure 
Border Initiative comes at a very important time as next week 
marks an anniversary of sorts for the Department of Homeland 
Security.
    On September 21st, 2006, DHS awarded a contract to Boeing 
to help secure our nation's borders. At that time we were told 
that Boeing would be integrating existing off-the-shelf 
technology to create a virtual fence along the borders known as 
SBInet. It was supposed to be a relatively easy project.
    Instead, the Government Accountability Office has 
repeatedly raised concern about SBInet, including poor 
planning, insufficient testing, inadequate government oversight 
and a failure to set and achieve project goals. Today, after 
spending nearly a billion dollars on the program we are still 
waiting for an effective technological tool to secure America's 
borders.
    DHS and Boeing have had 3 years to show they can secure the 
borders with technology. It is my understanding that they have 
at least one more year to do so if the department renews 
Boeing's SBInet contract for an additional year as expected, 
which I understand has already been executed.
    It is time to deliver some tangible results to the American 
people and to Congress. I would like to know how DHS is going 
to ensure that when Boeing delivers the next phase of SBInet to 
the government early next year, taxpayers get their money's 
worth.
    Clearly, this administration has inherited a serious 
challenge and has some difficult choices ahead. DHS either 
needs to get SBInet right or find an alternative technology 
solution that will do the job. Along with technology, DHS has 
committed significant resources in recent years to constructing 
physical fencing along the southwest border.
    While there are currently over 600 miles of fence and 
barriers, according to GAO the department has not 
systematically evaluated the effectiveness of these barriers. 
At a price tag of roughly $2.4 billion and a potential 
lifecycle cost of $6.5 billion, GAO's finding is extremely 
troubling.
    Looking ahead, both DHS and Boeing have considerable ground 
to cover when it comes to deploying effective, efficient border 
security technology and infrastructure, I am hopeful this 
administration can address many of the problems that have 
plagued this program and previous border security technology 
efforts.
    The witnesses can be assured that this committee will 
continue to monitor the Secure Border Initiative closely. I 
would like to thank Chairwoman Sanchez for all her work 
continuing her oversight on this important topic. I would also 
like to thank the witnesses for being here today, and I also 
look forward to their testimony. I yield back.
    Ms. Sanchez. I thank the Chairman of the full committee. 
Other members of the subcommittee are reminded that under 
committee rules, opening statements may be submitted for the 
record.
    And so now I would like to welcome our panel of witnesses. 
I will give the backgrounds of our witnesses and then we will 
start down the row and ask for your 5-minute or less summary of 
your written testimony.
    Our first witness will be Chief David Aguilar. He was named 
Chief of the United States Border Patrol in May 2004. As the 
nation's highest ranking Border Patrol agent, Chief Aguilar 
directs the enforcement efforts of more than 16,500 Border 
Patrol agents nationwide, and I commend you for that because I 
know we have grown our Border Patrol quite quickly, and you 
have been at the helm of that.
    So you have the expertise gained from 30 years of service. 
We look forward to your testimony, Chief, and welcome.
    Our second witness, Mr. Mark Borkowski, was named Executive 
Director of the Secure Border Initiative Program Executive 
Office in October of 2008. He oversees the SBI implementation 
at Customs and Border Protection, and he will oversee SBI's 
continued efforts to provide front line personnel with the 
enhanced situational awareness along the U.S. borders.
    Before joining CBP he was a program executive for the 
Robotic Lunar Exploration program in the Exploration Systems 
Mission Directorate at NASA headquarters. Welcome.
    Our third witness, Mr. Timothy Peters, is a Vice President 
of Global Security Systems, a business of Boeing Integrated 
Defense Systems. He is responsible for the execution of SBInet 
and other GSS programs. Since joining Boeing in 1985, Mr. 
Peters has held a number of key engineering and leadership 
positions on surveillance and command and control programs. We 
welcome you this morning.
    And our final witness, Mr. Richard Stana, is the Director 
of Homeland Security and Justice Issues at the Government 
Accountability Office. During his 33-year career with the GAO, 
Mr. Stana has directed reviews on a wide variety of complex 
military and domestic issues and most recently he has directed 
GAO's work in immigration and border security issues. He has 
been frequently before us. We welcome you back.
    So without objection, the witnesses' full statements will 
be inserted into the record, and I will ask the witnesses to 
summarize their statements in 5 minutes or less. And we will 
begin with Chief Aguilar, who will give a statement on behalf 
of both himself and Mr. Borkowski for CBP.

  STATEMENT OF CHIEF DAVID AGUILAR, U.S. BORDER PATROL, U.S. 
                 CUSTOMS AND BORDER PROTECTION

    Chief Aguilar. Good morning. Chairwoman Sanchez, Chairman 
Thompson and Ranking Member Souder, I want to begin by 
expressing my appreciation for this subcommittee's and the full 
committee's interest in not only our mission, but especially 
the interest and the well-being, safety, of our men and women.
    It is good to be here this morning, and it is absolutely a 
privilege and an honor to appear before you to testify and 
discuss the Secure Border Initiative. As you stated, I am 
accompanied by Mr. Mark Borkowski, who is our executive 
director for the Secure Border Initiative.
    The primary goal of our strategy between the ports of entry 
is to gain effective control of our nation's border. Effective 
control is achieved when a chief patrol agent in the field 
determines that in a given area of operation the Border Patrol 
has the ability to consistently detect, identify, classify, 
respond to any illegal incursion that occurs between the ports 
of entry, and very importantly, has the ability to bring that 
illegal incursion to an appropriate law enforcement resolution.
    In our view, control of our borders between the ports of 
entry comes from an appropriate combination of personnel, 
technology and tactical infrastructure, which includes border 
fencing. We often refer to this requirement as a three-legged 
stool. These components are interdependent and provide for 
maximum effectiveness when appropriately applied.
    The mix of these three elements will vary depending on the 
challenges posed by the area on which we are focusing. Within 
that construct, the Secure Border Initiative plays an important 
role. It is but one part of our integrated approach, but it is 
a very critical and significant piece.
    The current focus of the Secure Border Initiative is to 
support border control efforts by providing tactical 
infrastructure and technology. Before discussing the details of 
SBInet, it might be useful to provide a short update on our 
progress with respect to construction of tactical 
infrastructure along the southwest border.
    As of the end of August we have approximately 632 miles of 
fence constructed. Of that, approximately 334 miles are 
pedestrian fence and the remaining 298 miles are vehicle fence. 
Our target, based on our chiefs' assessments, has been 
approximately 670 miles throughout the southwest border.
    The exact total mileage is imprecise at this point because 
it will depend on the actual measurement of completed fence as 
opposed to pre-construction estimates. We are actually in the 
process of modifying this figure as we speak.
    Fence provides what we refer to as ``persistent impedance'' 
which contributes to our ability to control the border by 
providing additional time for agents to respond to incursions, 
illegal incursions.
    As we have testified before, fence alone will not secure 
the border. However, we believe some areas of the border must 
have persistent impedance in order to establish control. It is 
in those areas where we have emphasized the construction of 
fence.
    Let me now turn to some specifics about SBInet, the 
technology part of SBI and the focus of this hearing. The 
SBInet program is focused on developing and deploying a system 
that can provide surveillance and situational awareness over 
stretches of the border. Project 28 was our initial effort to 
prototype this type of system.
    While Project 28 suffered from many deficiencies, it has 
actually evolved to the point where it is now operational and 
provides effective support of our operations. For example, it 
has been instrumental in enabling the apprehension of over 
5,000 illegal entrants and over 14,000 pounds of narcotics.
    More importantly, we were able to use the lessons learned 
from Project 28 to design the first generation of the 
operational SBInet system. We call this first generation SBInet 
Block 1. We have completed most of the engineering design of 
SBInet Block 1 and have performed extensive engineering testing 
now.
    We are in the process of installing our first deployment 
into an operational area known as TUCSON-1. TUCSON-1 will 
actually replace Project 28 prototype system with a new Block 1 
first generation production system to cover 23 miles of border 
around Sasabe, Arizona.
    The Border Patrol will receive the system, probably in 
early January, to conduct a formal process known as Operational 
Test and Evaluation, OT&E. In OT&E the Border Patrol will 
conduct disciplined assessments in the real world environment 
to determine whether the SBInet Block 1 system is effective and 
suitable for use.
    Based on these assessments, the Border Patrol will 
effectively deliver literally a report card to SBI indicating 
whether it has met our operational requirements. In parallel 
with these test activities, we expect to begin the deployment 
of our second area of operation known as AJO-1.
    It will cover approximately 30 miles of border near Ajo, 
Arizona. Together TUCSON-1 and AJO-1 represent the initial 
deployment of Block 1. Through its structured review process, 
the Department of Homeland Security has authorized initial 
deployment but not full deployment.
    After the initial deployment and results of the Border 
Patrol's test of Block 1, CBP will be in a better position to 
decide on the pace and magnitude of future deployments. The 
last 3 years of SBInet had been frustrating and at times very 
discouraging.
    We believe we are on a reasonable improvement path. We 
understand that the Congress and this committee are less 
interested in hearing about our improvement plans and, as we, 
more interested in results.
    We share that interest and commit our best efforts to 
produce those results in a prudent and effective manner. We 
appreciate this committee's continued support of CBP's efforts 
to better secure our borders, and we look forward to any 
questions that you might have of us. Thank you.
    [The joint statement of Chief Aguilar and Mr. Borkowski 
follows:]

      Joint Prepared Statement of David Aguilar and Mark Borkowski

    Chairwoman Sanchez, Ranking Member Souder, and distinguished 
Members of the Subcommittee, it is a privilege and an honor to appear 
before you today to discuss ``The Secure Border Initiative: Three Years 
Later.'' At U.S. Customs and Border Protection (CBP), we are confident 
that we are making significant strides in our integrated efforts to 
increase the security of our borders.
    I would like to start by emphasizing an important point: our border 
security efforts are integrated efforts, and while the Secure Border 
Initiative (SBI) is an important element of our overall strategy, it 
does not represent a panacea or a stand-alone capability for border 
security. It is one part of a much larger effort, which includes many 
stakeholders and partners across the federal government, as well as 
state, local, tribal, and international partners. The National 
Southwest Border Counternarcotics Strategy, released jointly this past 
June by Office of National Drug Control Policy Director Kerlikowske, 
Attorney General Holder, and Secretary Napolitano is one example of 
this broad, integrated effort.
    The primary goal of our strategy between the ports of entry is to 
secure our Nation's borders. This means consistently detecting illegal 
entries into the United States, assessing and classifying any threats 
associated with the illegal entries, responding to the area, and 
bringing the situation to a successful law enforcement resolution. Put 
a bit more simply, the ability to secure the border requires two basic 
conditions. First, we must have an accurate awareness of what is going 
on in the area around the border. Secondly, we must have the ability to 
respond to that awareness how, where, and when we deem it appropriate 
to respond. The ability to secure of the border, therefore, comes from 
a combination of both the knowledge and the ability to act on that 
knowledge.
    In our view, control of our borders--particularly between the legal 
ports of entry--comes from an appropriate combination of personnel, 
technology, and tactical infrastructure. We often refer to this 
strategy as a ``three-legged stool.`` One of these legs alone cannot 
provide control of the border. The mix of these three elements will 
vary depending on the challenges of the focus area. Technology alone 
cannot control the borders, but it can provide a significant capability 
that augments and improves the effectiveness of an integrated approach. 
Similarly, tactical infrastructure, such as fencing, does not control 
the border independently of other elements.
    How can we measure the effectiveness of each contribution 
(personnel, technology, and tactical infrastructure) to the overall 
control of the border? That is a difficult question to answer. No one 
of the elements that contribute to border control can do the job 
without contributions from the other elements. For example, we cannot 
say that fencing prevented a discrete number of people from crossing 
the border illegally, and that technology prevented some others, and 
personnel prevented still others. In fact, even to ask the question 
perpetuates the misperception that any single one of these elements can 
control the border.
    We do believe, however, that we can evaluate and characterize the 
effectiveness of our integrated efforts to secure the border. And we 
can characterize the contribution of each of the three legs of the 
stool even if we cannot precisely quantify the individual contribution 
of each component. Technology allows us to detect the entries and to 
assess and classify the threat. Personnel provide the response to 
confront the criminal element. Tactical infrastructure supports the 
response by either providing access or extending the time needed for 
the response by deterring or slowing the criminal element's ability to 
easily cross the border and escape.
    Personnel are the most flexible and robust of the elements, since 
they can provide both knowledge (through observation) and response. 
However, use of personnel alone is not the most efficient way to 
achieve border control. Deploying enough personnel to provide coverage 
of large areas of the border would be cost prohibitive as well as a 
nonsensical use of funds. Technology can be used to ``watch'' large 
areas of the border, thus helping with the ``knowledge'' part of the 
equation. By using technology in this role, we can relieve personnel of 
the requirement to stand and observe, and redeploy them to serve where 
current technology cannot -in the area of response. Finally, we can use 
tactical infrastructure, such as fencing, as a fixed resource to deter 
and delay illicit border incursions. It is important to recognize that 
tactical infrastructure and technology are not interchangeable. 
Infrastructure (including fencing) provides a constant and continuous 
effect, and more options for response. I wish to be very clear-fence 
alone does not and cannot provide effective control of the border. It 
does, however, provide a continuous and constant ability to deter or 
delay, which we refer to as ``persistent impedance.'' That delay 
provides more time for personnel to respond to the incursion, but it 
cannot altogether stop an incursion.
    The current focus of SBI is to support border control efforts by 
providing tactical infrastructure and technology. SBInet, which is the 
primary focus of this hearing, represents the technology contribution 
of SBI. Before discussing the details of SBInet, it might be useful to 
provide a short update on our progress with respect to construction of 
the fence along the southwest border. As of the end of August, we have 
approximately 632 miles of fence constructed. Of that, approximately 
334 miles are pedestrian fence and the remaining 298 miles are vehicle 
fence. Our target, based on Border Patrol's operational assessments of 
fencing needs, has been approximately 670 miles. The exact total 
mileage is imprecise at this point because it will depend on the actual 
measurement of completed fence as opposed to pre-construction 
estimates. The fence that is not yet complete is still planned but has 
been delayed primarily due to legal proceedings related to the 
condemnation and transfer of real estate required for the fence.
    As already noted, fence provides persistent impedance, which 
contributes to our ability to secure the border by providing additional 
time for agents to respond to incursions. There are locations where the 
Border Patrol has concluded that persistent impedance is absolutely 
necessary in order to gain control of the border. There are other areas 
where persistent impedance would be a useful contribution but it is not 
an absolute necessity. It is important to emphasize the fact that we 
have constructed and planned fencing in areas where the Border Patrol 
has concluded that persistent impedance is a necessity; we have not 
built fence in areas where we think we might be able to achieve control 
through other means--that is, through different combinations of 
personnel, technology, and tactical infrastructure--or where we have 
encountered engineering or other challenges in moving with 
construction. Before any consideration is given to building fencing in 
other locations, we want to ensure that CBP has determined the 
operational requirements for effective control in those areas, and has 
the opportunity to compare any other options we can identify. An 
accurate assessment requires more experience and observation, both in 
areas where we have fencing and in areas where we do not, so that we 
have a good basis for the comparison.
    Furthermore, we have built fence where we have concluded it is the 
most cost-effective way to provide persistent impedance. As a practical 
matter, the only other, albeit unrealistic, way to provide persistent 
impedance is to deploy personnel fairly densely along the border, in 
fixed locations, twenty-four hours a day and seven days a week. We 
reviewed these options in a set of detailed ``Analyses of 
Alternatives,'' we have provided to the Congress as part of our annual 
expenditure plan.
    Let me now turn to some specifics about SBInet, the technology part 
of SBI, which is the focus of this hearing. The SBInet program is 
focused on developing and deploying a system of networked sensor towers 
that can provide surveillance and situational awareness over stretches 
of the border. The SBInet system will be deployed in discrete Areas of 
Responsibility (AoRs) each of which covers a length of border ranging 
between approximately 20 and 40 miles. The basic concept involves 
constructing towers in locations that are selected based on knowledge 
of terrain, vegetation, and typical routes used by illegal entrants, as 
well as by sensitivity to and impact on the environment. Each of the 
sensor towers in an AoR includes a ground surveillance radar, a day 
camera, and a night camera. Each also includes a receiver for signals 
from unattended ground sensors (UGSs), which are hidden within the AoR 
and can detect nearby movement. There are also communications relay 
towers, which receive the signals from the sensor towers and transmit 
them back to a Border Patrol station. One key element of SBInet that 
distinguishes it from other technology at the border is the networking 
of the towers and sensors. Information from the various cameras, 
radars, and sensors is combined within a computer system called the 
Common Operating Picture (COP). The COP provides a display on computer 
monitors that includes an integrated picture of the radar and sensor 
detections from all of the towers within an AoR. It also provides the 
feeds from the day and night cameras, and software that can point the 
cameras in order to look at what the radars and sensors have detected.
    Project 28 was our initial effort to prototype this type of SBInet 
system. As a prototype, we did not intend Project 28 to be the actual 
system we would put in production. We did, however, anticipate that, 
even as a prototype, Project 28 would provide us with improved 
capability, and we advertised that it would be a relatively simple and 
low risk effort. Unfortunately, it did not work as well as we 
anticipated and took longer than it should have to complete. But we 
learned from the experience and we are in the process of making 
significant improvements.
    Since the initial experience, we have improved Project 28 to the 
point that it is currently operational and effective in supporting the 
Border Patrol in the area around Sasabe, Arizona. Border Patrol agents 
credit Project 28 with providing them with enhanced situation awareness 
that has assisted in the detection and subsequent apprehension of over 
5,000 illegal entrants and the interdiction of over 14,000 pounds of 
marijuana. Without Project 28-and absent some other increase in 
capability, such as more agents--the success rate of these 
apprehensions and interdictions may have been lower.
    Our SBInet contractor, Boeing, has taken a great deal of criticism 
for its past performance on SBInet. In truth, SBI has not been fully 
satisfied with performance to date. It is worth noting, however, that 
Boeing delivered Project 28 on a firm fixed price task order basis and 
absorbed tens of millions of dollars in losses in order to correct the 
initial deficiencies, demonstrating a significant commitment to deliver 
a useful capability.
    We were able to use the lessons we learned from Project 28 to 
design the first generation of the operational SBInet system. We call 
this first generation SBInet Block 1. We have completed most of the 
engineering design of SBInet Block 1 and have performed extensive 
engineering testing. Although the engineering tests increased our 
overall confidence in the system, they did identify some areas for 
improvement. We do not believe those areas represent ``show stoppers,'' 
but we have taken steps to enforce a deliberative and disciplined 
process to address them, including opting to delay some program 
activities while we await the results of further testing and analysis.
    At this point, we are in the process of doing our first deployment 
into an operational known as Tucson-1, will replace Project 28 (the 
prototype system) with the new Block 1 (first generation production 
system) to cover 23 miles of border around Sasabe, Arizona. Tus-1 
includes nine sensor towers and eight communications relay towers, all 
of which are now constructed. We are now starting basic system and 
component checkout of the Tus-1 systems and awaiting results of some 
remaining corrective actions before authorizing Boeing to begin more 
comprehensive system testing. SBI anticipates being prepared to provide 
that authorization within the next few weeks, at which point we will 
conduct extensive engineering tests on the system. Those tests are 
designed to demonstrate that the system meets its engineering 
requirements. If it passes, SBI will accept the system from Boeing.
    Provided SBI accepts it, the Border Patrol will receive the system, 
probably in early January, to conduct a formal process known as 
Operational Test and Evaluation (OT&E). In OT&E,the Border Patrol will 
conduct disciplined assessments in a real world environment to 
determine whether the SBInet Block 1 system is effective and suitable 
for use. Based on these assessments, the Border Patrol will effectively 
deliver a report card to SBI, indicating whether or not it has met 
their operational requirements. The Border Patrol is still designing 
the test regimen, but we anticipate OT&E will continue at least into 
March of next year.
    While testing is underway, we expect to begin the deployment of our 
second AoR, known as ``Ajo-1,'' Ajo-1 will cover about 30 miles of 
border near Ajo, Arizona. Our experience with Ajo-1 will build on Tus-1 
and Ajo-1 and ensure we can move from one deployment activity to 
another in a smooth and effective manner. Ajo-1 should be completed and 
tested by late spring or early summer of next year.
    Taken together, Tus-1 and Ajo-1 represent the initial deployment of 
Block 1. Through its structured review process, the Department of 
Homeland Security (DHS) has authorized initial deployment--but not full 
deployment. This is a normal sequence of events. Before authorizing 
full deployment, we need to have the results of the Border Patrol's 
OT&E and demonstrate that we can effectively and efficiently complete 
the deployment process. As currently planned, full deployment of Block 
1 means deployment along the Arizona border. The exact schedule for 
that deployment will depend on the successful completion of initial 
deployment activities, as well as other decisions that will be advised 
by the initial deployments. For example, based on results from the 
initial deployments, CBP will gain experience and knowledge about how 
well SBInet contributes to the technology element of border control. 
With that knowledge, we can make better decisions about where it is 
most cost-effective to use SBInet Block 1. CBP will also have better 
information about the desired pace of deployments going forward and can 
reflect those decisions in future budget submissions.
    In short, we believe we are making appropriate progress towards the 
deployment of SBInet Block 1. Based on the testing that has been 
performed to date, we have a sound level of engineering confidence that 
the system will meet its requirements. In order to increase our 
confidence, we are proceeding with the initial deployments and the 
formal OT&E process.
    We have set requirements for our program that are modest but 
effective. Remembering that technology does not, in and of itself, 
control the border, we require SBInet Block 1 to detect at least 70 
percent of incursions within each AoR and provide accurate 
identification at least 70 percent of the time. The Subcommittee may 
recall that early goals for SBInet were at 95 percent, rather than the 
70 percent we have currently established. This threshold does not 
indicate that we will allow failure to detect or identify incursions 30 
percent of the time. Rather, we recognize that the SBInet system is one 
contribution among several resources we have available, such as air 
assets, tactical infrastructure, additional technology, and personnel. 
Based on experience, cost, and a better understanding that the role of 
technology is to contribute, SBInet's contribution may well be adequate 
to provide an overall, integrated capability of 95 percent or more, 
when all of the other elements of border control are taken into 
account.
    In designing the Block 1, we have selected modest components which 
we believe are cost-effective and anticipate will do the job. While 
there are other cameras and radars that are higher performing, by 
starting with the currently-designed Block 1, we: avoid the risk of 
over-designing; we reduce the risk of excessive cost, schedule, and 
technical problems; we provide an operational capability sooner; and we 
provide the quickest possible opportunity to evaluate the effectiveness 
of the system in an operational environment. With some real-world 
experience, we can make future decisions about how and if we should 
enhance the system. Our block approach to SBInet, which represents an 
acquisition strategy known as spiral development, provides us an 
opportunity to deliver cost-effective enhancements in the future, as 
needed or desired.
    While we are deploying the SBInet Block system and tightening up 
our requirements discipline, we are also taking steps to improve our 
competence in the management of complex acquisition programs. We have 
redesigned our SBI organization to develop and retain skilled 
government personnel in the disciplines that are key to successful 
program management. We are also strengthening our oversight and 
management of our contractors' activities to ensure we are able to 
communicate our requirements clearly and consistently.
    We are strengthening the role and influence of the end users of our 
systems--in this case, the Border Patrol--in the development and 
acquisition process. The structured we described, which is a normal 
process in the Department of Defense but relatively new to us, is one 
example. Beyond that, operational end users participate in overseeing 
program activities, setting priorities, and deciding on acquisition 
courses of action. End users also now have a more structured process 
and conduit to request consideration of program changes, and to 
participate in trade-offs between capabilities and costs.
    We are eager to establish better ways to predict and evaluate the 
effectiveness of our systems. We are confident that increased 
enforcement efforts have had a positive effect on our ability to 
control our borders. Since 2006, we have increased the size of the 
Border Patrol from approximately 12,350 agents to nearly 20,000 today. 
We now have almost 650 miles of fence deployed to areas along the 
border where we need it most. And we have begun to deploy effective 
technology to critical areas. There is no question, based on the 
measures we have available, that these enforcement activities have 
reduced illegal activity between the ports of entry.
    Going forward, we acknowledge we need to find a better way to 
characterize and measure the effects of increased enforcement. The 
third party indicators we currently use, like trends in apprehensions 
or drug seizures, taken with our subject matter expert assessment about 
relative levels of border control, are useful and valid. But we still 
need to develop tools that will allow us to assess different mixes of 
personnel, tactical infrastructure, and technology; to compare their 
effectiveness; and to compare their costs. In this way, we can make 
better decisions about the most cost-effective investments. In order to 
develop the appropriate tools, we need to gain experience and measure 
results of our ongoing efforts. We believe we are headed in that 
direction with our current activities.
    In closing, although we know that the last three years of SBInet 
have been frustrating and at times discouraging for all involved, we 
believe we are on a path towards improvement. We thank Congress and 
this Subcommittee for your interest in this issue and share your desire 
for the achievement of results. We appreciate the Subcommittee's 
continued support of CBP's efforts to better secure our borders and 
look forward to responding to your questions.

    Ms. Sanchez. Thank you, Chief.
    And I will now recognize Mr. Peters to summarize his 
statement for 5 minutes or less.

  STATEMENT OF TIMOTHY E. PETERS, VICE PRESIDENT AND GENERAL 
      MANAGER, GLOBAL SECURITY SYSTEMS, THE BOEING COMPANY

    Mr. Peters. Good morning, Chairwoman Sanchez, Chairman 
Thompson, Ranking Member Souder and committee members. I 
appreciate the opportunity to discuss SBInet progress with you 
today.
    I will update you today on development and deployment 
status of the SBInet Block 1 system. This capability is a 
substantially improved version of the prototype we delivered to 
Customs and Border Protection in early 2008. I will also say a 
few words about our deployments on the northern border.
    P28, which has been operational for 18 months now, has 
proven to be a valuable enforcement tool for the Border Patrol. 
P28 also serves as a valuable engineering tool for the 
development of Block 1 in future SBInet systems.
    Over the past 2 years many important lessons have been 
learned from the P28 prototype and incorporated into the SBInet 
Block 1 system. The first deployment known as TUCSON-1 or TUCS-
1 has been constructed in the area of P28 and covers 23 miles 
of the border at the Sasabe port of entry.
    A second deployment called AJO-1 has been initiated to the 
west of TUCS-1 and will cover 30 miles of border at the 
Loopville port of entry. The TUCS-1 deployment consists of nine 
sensor towers, eight communication towers and a command and 
control facility.
    The Block 1 system includes a fixed tower design an 
upgraded sensor package and improved communication system and a 
new common operational picture or COP. BOEING engineers work 
side-by-side with Border Patrol agents in the design of the 
look, feel and function of the Block 1 common operational 
picture.
    During this development, we have encountered technological 
challenges common to the integration of commercial off-the-
shelf components. Two recent issues have proven to be 
especially problematic. The first, control of the radar during 
azimuth scanning and the second, human machine interface 
freezes.
    After a detailed root cause corrective action effort, I am 
pleased to report that we have implemented solutions that 
address each of these problems and subsequently have undergone 
several weeks of successful testing without recurrence.
    The Block 1 system is scheduled to complete system 
qualification tests in the next month at facilities in Playas, 
New Mexico. Then in the deployed TUCS-1 system will undergo 
system acceptance testing during the fourth quarter of this 
year.
    When completed we will deliver the system to the government 
for operational test and evaluation, which will be overseen by 
the Border Patrol. Results of these tests will assist the 
customer in determining future deployments and system 
enhancements.
    The Ajo deployment is also progressing. The system design 
is complete and construction of the Border Patrol command and 
control facility has been initiated. However, site specific 
work and installation of the system are awaiting environmental 
approval from the Department of the Interior.
    In summary, the SBInet Block 1 system, pending successful 
completion of the testing that I outlined, will be ready for 
deployment across the southwest border.
    Boeing has also been working on the northern border 
deployments in the Detroit and Buffalo sectors. In these 
deployments Boeing is installing remote video surveillance 
systems to enhance agent surveillance capabilities in a 
temperate river environment. The RVSS' are comprised of two 
sets of day and night cameras mounted atop monopoles and/or 
existing structures.
    These systems feed video images back to Border Patrol 
sector headquarters. Installation began in the Buffalo sector 
in early May of this year and in the Detroit sector in early 
September. Both deployments are planned to be delivered to the 
government by early 2010.
    In conclusion, I would like to say that SBInet has been 
both an important and challenging program to the Boeing 
Company. The P28 prototype and Block 1 system represent 
approximately half of the government-funded effort that Boeing 
has received to date.
    Additionally, Boeing has made a number of significant 
capital and research and development investments to ensure the 
success of the SBInet program. The Block 1 system remains the 
core of our effort.
    As I mentioned earlier, I believe we have a system that is 
robust and soon will be ready for a widespread deployment. Our 
goal remains to provide the technology and tools to support 
enhanced border security and increased agent safety as the best 
value of the taxpayers.
    With the Tucson sector deployment underway, SBInet now has 
a solid foundation for future deployments. Thank you for the 
opportunity to provide testimony this morning, and I look 
forward to your questions.
    [The statement of Mr. Peters follows:]

                Prepared Statement of Timothy E. Peters

    I'm Tim Peters, Vice President of Boeing's Global Security Systems, 
which includes the SBInet program. I appreciate the opportunity to 
discuss progress on SBInet before the Subcommittee on Border, Maritime, 
and Global Counterterrorism.
    Today, I'll address our progress in designing and developing the 
overall SBInet solution. I'll also update you on the deployment status 
of Block 1, which is based on the same concept of integrated, 
commercial technology, but includes improvements from P-28. I'll also 
say a few words about activities on the Northern Border.

P-28 Lessons Learned
    P-28 has proven to be a valuable operational tool for the Border 
Patrol, as well as a framework for development of Block 1 and future 
SBInet systems. Operational for eighteen months, P-28 has been 
instrumental in apprehension of thousands of illegal border crossers 
and interception of thousands of pounds of narcotics, according to 
recent Customs and Border Protection reports. Many important lessons 
learned from the prototype P-28 system have been incorporated into the 
development of Block 1, including:
        --Active involvement of the entire user community in the system 
        design and function;
        --Laboratory testing of components, systems and subsystems, and 
        the creation of an operationally representative test-bed for 
        field testing; and
        A substantially improved Common Operating Picture.

Block 1
    The Block 1 system has been in development for the past two years. 
The first deployment is known as Tucson 1--or TUS-1--is now well along 
in the P-28 area of operations and will cover 23 miles of the border 
around the Sasabe Port of Entry. A second deployment, called AJO-1, has 
been initiated west of the TUS-1 area of operations and will cover 30 
miles of border at the Lukeville Port of Entry. AJO-1 construction will 
follow TUS-1 by several months while we await the Department of the 
Interior's environmental approval.
    TUS-1 consists of nine sensor towers and eight communications 
towers. Of the 17 total towers, Boeing built 13 new towers and modified 
four existing government towers. As of today, all tower construction is 
complete, and all sensors have been installed. For those of you 
familiar with the system, it has a distinctly different look to 
complement its improved capabilities. We are using a fixed tower, an 
upgraded sensor package, a different support equipment package, and 
most importantly, greatly improved communication technology. 
Specifically, TUS-1 and all future deployments will send data back to 
sector headquarters via a line-of-sight microwave link or fiber-optic 
link where it is available or not cost-prohibitive to do so. Gone are 
the satellite dishes used in the P-28 system, as well as the system 
lags they produced. The TUS-1 system is much more responsive, providing 
information to agents more quickly. The new Common Operating Picture 
(or COP) software is also responsible for significant improvements in 
responsiveness and usability. Boeing engineers sat side-by-side with 
Border Patrol agents who served as the primary designers of the look, 
feel and function of the Block 1 COP.
    While we've encountered some technological challenges--not uncommon 
when integrating off-the-shelf components &ndash; we're working 
diligently within our team and the customer to resolve issues quickly 
and thoroughly, so the operational system will be robust and reliable. 
There have been two recent issues that have been particularly 
problematic &ndash; radar control, and human-machine interface 
malfunctions. I'm happy to report that we have implemented solutions to 
address each of those problems. We've been testing these solutions for 
several weeks, and the problems have not recurred.
    Once these solutions are fully implemented over the coming weeks, 
the Block 1 system will complete System Qualification Test (SQT) at 
test facilities in Playas, New Mexico, then the deployed TUS-1 system 
will undergo Systems Acceptance Testing (SAT) during the fourth quarter 
this year. When completed, we'll hand the system over to the government 
for Operational Testing and Evaluation (OT&E), which will be overseen 
by the Border Patrol. Results of these tests will assist the customer 
in determining future deployments, system enhancements and designs for 
other border geographies.
     Our goal has been to provide a complete system, technology and 
tools to bolster security for the nation, increase agent safety and add 
value for taxpayers. With the Tucson deployment underway, SBInet now 
has a baseline to be replicated in future deployments, such as AJO-1. 
We have a frame of reference from an operational deployment, not just 
the prototype of Project 28. The Block 1 system remains the core of our 
effort, and I believe our work over the last few years has lowered risk 
and increased system integrity. I also believe our work has produced a 
capability that will give the Border Patrol agents a highly effective 
tool to enhance border security and improve agent safety. We have now 
had the opportunity to work in the field with the Border Patrol Agents 
and have a more thorough understanding of the challenges they are 
facing. We believe that the Block 1 system architecture we are 
providing, once deployed, is readily scalable and upgradeable to 
incorporate new and improved sensors to meet changes in the Border 
Patrol Agent's mission.

AJO-1
    The AJO-1 deployment is also progressing well. System design is 
complete, and the command-and-control facility is already under 
construction. The majority of the hardware has been purchased, and site 
work and installation are awaiting environmental approval from the 
Department of the Interior, expected in mid-October. The AJO deployment 
consists of six sensor towers and five communications towers, spanning 
about 30 miles of border.

Northern Border
    The Boeing team has also been active on the Northern Border with 
projects in the Detroit and Buffalo Sectors. Boeing is installing 
Remote Video Surveillance Systems, or RVSS, to enhance surveillance 
capabilities in a cold-weather, river environment. The RVSS are 
comprised of two sets of day and night cameras atop monopoles or 
existing structures. These systems feed video images back to sector 
headquarters using the same microwave communications design as being 
deployed in TUS-1 on the southwest border. However, in this deployment 
we aren't including radar for additional detection or a Common 
Operational Picture for multi-sensor correlation and tracking. Eleven 
RVSS are slated to be installed in the Detroit Sector to monitor 
activities along the St. Clair River and five in the Buffalo Sector to 
monitor activities along the Upper Niagara River. Installation began in 
the Buffalo Sector in May, and efforts recently started in the Detroit 
Sector. We expect both projects to be fully operational by early 2010.

Conclusion
    In conclusion, let me say that SBInet has been both a challenging 
and also an important program to The Boeing Company. The Project 28 
prototype and Block 1 system, which have received a majority of the 
attention, represent approximately half of the government-funded effort 
to date. Boeing has invested its own funds in SBInet: we built a 
systems integration lab in Huntsville, Alabama; we established the 
Rapid Application Development / Joint Application Development lab in 
Arlington, Virginia; and we created modeling and simulation tools to 
support development. These have been significant factors in the 
program's success to date. Boeing has also leveraged existing 
capabilities to support SBInet. For example, the entire TUS-1 network 
was replicated in our existing Network Systems Integration Laboratory 
(NSIL) in El Segundo, California, to ensure it was operationally robust 
prior to deployment.
    Boeing's support to Customs and Border Protection has extended 
beyond SBInet. Last year, we supported tactical infrastructure efforts 
through the Supply and Supply Chain Management task order. Using our 
supply chain expertise, we procured more than $440 million or 140,000 
tons of steel for use in 290 miles of fence construction. That's the 
equivalent of three modern-day aircraft carriers. According to 
September 2008 testimony by then-U.S. Customs and Border Protection 
Commissioner W. Ralph Basham, between $63 million and $100 million was 
saved.
    Our goal has been to provide a complete system, technology and 
tools to bolster security for the nation, increase agent safety and add 
value for taxpayers. With the Tucson deployment underway, SBInet now 
has a baseline to be replicated in future deployments, such as AJO-1. 
We have a frame of reference from an operational deployment, not just 
the prototype of Project 28. The Block 1 system remains the core of our 
effort, and I believe our work over the last few years has lowered risk 
and increased system integrity. I also believe our work has produced a 
capability that will give the Border Patrol agents a highly effective 
tool to enhance border security and improve agent safety. We have now 
had the opportunity to work in the field with the Border Patrol Agents 
and have a more thorough understanding of the challenges they are 
facing. We believe that the Block 1 system architecture we are 
providing, once deployed, is readily scalable and upgradeable to 
incorporate new and improved sensors to meet changes in the Border 
Patrol Agent's mission.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    Ms. Sanchez. Thank you, Mr. Peters, and thank you for 
coming under time.
    Mr. Stana, for 5 minutes or less on your testimony?

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
          JUSTICE ISSUES, GOVERNMENT ACCOUNTING OFFICE

    Mr. Stana. Thank you, Chairwoman Sanchez, Chairman 
Thompson, Mr. Souder, members of the subcommittee. Shortly 
after the launch of the secure border initiative, this 
committee asked us to review the SBI program and to provide 
periodic updates on the status of our efforts and interim 
findings.
    My testimony and our report provide our fourth formal 
update. As you know, SBI is a multi-year multi-billion dollar 
program aimed at stemming illegal entry into the country. Since 
fiscal year 2005, SBI has received funding amounting to over 
$3.7 billion and DHS has requested over $779 million for next 
fiscal year.
    I would now like to highlight our observations on program 
status and challenges. With respect to technology deployment, 
the SBInet program continues to experience delays. When the SBI 
contract was let in September 2006, the initial SBInet 
technology deployment for the entire southwest border was 
planned to be completed by early fiscal year 2009, but by 
February 2009 the completion date had slipped to 2016.
    Similarly, in February 2008 the SBI program office reported 
that TUCSON-1 and AJO-1 in Block 1 would be complete by the end 
of calendar year 2008. TUCSON-1 is now scheduled for final 
acceptance by January 2010 and AJO-1 in June 2010.
    The cost of the SBInet projects from fiscal years 2007 
through 2014 was estimated at $6.7 billion, but the cost could 
change due to program adjustments. A lifecycle cost has not 
been estimated.
    Along with environmental issues and funding reallocations, 
the results of testing activities contributed to these delays. 
SBI program office officials emphasized, and we agree, that 
testing is a necessary step of deployment in that it ensures 
that technology capabilities perform as required.
    By February 2009 testing results revealed problems 
including the instability of camera under adverse weather 
conditions, mechanical problems with the radar at the tower, 
and issues with the sensitivity of the radar. The SBI program 
office is still working with Boeing to address some of these 
issues.
    In a 1-week user evaluation last spring that was not part 
of formal testing, Border Patrol agents had an opportunity to 
address the suitability and effectiveness of Block 1 technology 
compared to Project 28 and mobile surveillance system 
technology.
    The Border Patrol found that on windy days the Block 1 
radar had issues that resulted in an excessive number of false 
detection, and that the capability was not adequate for optimal 
operational effectiveness.
    They also found that the features of the Block 1 camera 
were insufficient in comparison to features of the Project 28 
and MSS cameras. Once all SBInet capabilities are deployed in 
TUCSON-1, the Border Patrol is to perform a complete 
operational testing. Provided there are no additional schedule 
changes, this testing of TUCSON-1 is scheduled to begin in 
January.
    Until SBInet is deployed, CBP cannot determine what 
operational changes it will need to take full advantage of the 
new technology. In the meantime, the Border Patrol relies on 
existing equipment such as cameras mounted on towers that have 
intermittent problems including signal loss.
    During our site visit to Tucson last March, Border Patrol 
agents told us, as they had during our previous visits, that 
Project 28 system had improved their operational capabilities 
but they must continue to work around ongoing problems, such as 
finding good signal strength for the wireless network, remotely 
controlling cameras and modifying radar sensitivity.
    To fill gaps or augment legacy equipment, SBI program 
office procured and delivered 40 MSS units, but these units 
sometimes are not operational because of the need for repairs.
    Turning to tactical infrastructure, the deployment of 661 
miles of fencing and vehicle barriers along the southwest 
border is nearing completion. But delays persist due mainly to 
property acquisition issues.
    About 633 miles had been completed and CBP was scheduled to 
complete the remaining 28 miles by November. Yesterday CBP 
provided an update of miles completed and remaining and these 
totals decreased slightly. About $2.4 billion has been 
allocated from fiscal years 2006 through 2009 to complete 
fencing projects.
    CBP estimates the lifecycle cost for the fencing and 
related roads, lighting and so on, assuming a 20-year lifespan, 
to be about $6.5 billion. According to CBP data, as of May 
2009, there had been 3,363 breaches in the fence with each 
breach costing an average of about $1,300 to repair.
    Despite the $2.4 billion investment in tactical 
infrastructure, CBP has not systematically evaluated the impact 
of tactical infrastructure on gains or losses in the level of 
effective border control.
    Such an evaluation is important to help demonstrate its 
contribution to effective control of the border and to help CBP 
to determine whether more tactical infrastructure would be 
appropriate given other alternatives and constraints.
    In our report, we recommended that DHS evaluate the impact 
of tactical infrastructure on effective control and DHS 
concurred with our recommendation and describes actions 
recently completed, underway or planned to address it.
    In closing, the SBInet program continues to face 
uncertainties and expectation gaps. Three years ago at the time 
the Boeing contract was signed, DHS was to have SBInet 
capabilities across the northern and southern borders as of 
today.
    While this was likely an overambitious goal and lessons 
have since been learned, schedules have continued to slip. In 
the meantime, the border control continues to rely mostly on 
Legacy technology and we remain uncertain about whether the new 
system will meet the Border Patrol's needs and expectations.
    These uncertainties underscore Congress' need to stay 
closely attuned to DHS' progress to ensure that SBInet 
deployments work as planned, the schedule stabilizes and that 
the investments made in the program yield an efficient and 
effective system that addresses our nation's border security 
needs.
    I would be happy to answer any questions that members may 
have.
    [The statement of Mr. Stana follows:]

                 Prepared Statement of Richard M. Stana

    Chairwoman Sanchez, Ranking Member Souder, and Members of the 
Subcommittee: I am pleased to be here today to discuss the 
implementation of the Department of Homeland Security's (DHS) Secure 
Border Initiative (SBI) program--a multiyear, multibillion dollar 
program aimed at securing U.S. borders and reducing illegal 
immigration. Securing the nation's borders from illegal entry of aliens 
and contraband, including terrorists and weapons of mass destruction, 
continues to be a major challenge. In November 2005, DHS announced the 
launch of SBI to help address this challenge. The U.S. Customs and 
Border Protection (CBP) supports this initiative by providing agents 
and officers to patrol the borders, secure the ports of entry, and 
enforce immigration laws.\1\ In addition, CBP's SBI program is 
responsible for developing a comprehensive border protection system 
using technology, known as SBInet, and tactical infrastructure-- 
fencing, roads, and lighting--along the southwest border to deter 
smugglers and aliens attempting illegal entry.\2\ Since fiscal year 
2005, SBI has received funding amounting to over $3.7 billion. 
Approximately $1.1 billion has been allocated to SBInet and $2.4 
billion to tactical infrastructure.\3\
---------------------------------------------------------------------------
    \1\ At a port of entry location, CBP officers secure the flow of 
people and cargo into and out of the country, while facilitating 
legitimate travel and trade.
    \2\ The SBI Program Executive Office, referred to in this testimony 
as the SBI program office, has overall responsibility for overseeing 
all SBI activities for acquisition and implementation, including 
establishing and meeting program goals, objectives, and schedules for 
overseeing contractor performance,and for coordinating among DHS 
agencies. However, as of March 2009, the tactical infrastructure 
program office was realigned and is now managed on a day-to-day basis 
by CBP's Office of Finance Facilities Management and Engineering 
division.
    \3\ Remaining funds were allocated to program management and 
environmental requirements.
---------------------------------------------------------------------------
    SBInet surveillance technologies are to include sensors, cameras, 
and radars. The command, control, communications, and intelligence 
(C3I) technologies are to include software and hardware to produce a 
Common Operating Picture (COP)--a uniform presentation of activities 
within specific areas along the border. SBInet technology is to be 
initially deployed in two geographic areas --designated as Tucson-1 and 
Ajo-1-- within the Tucson sector.\4\ In September 2006, CBP awarded a 
prime contract for SBInet development to the Boeing Company for 3 
years, with three additional 1-year options. As of July 8, 2009, CBP 
had awarded 13 task orders to Boeing for a total amount of 
approximately $1.1 billion.\5\
---------------------------------------------------------------------------
    \4\ The U.S. Border Patrol has 20 sectors in which it is 
responsible for detecting, interdicting, and apprehending those who 
engage in illegal activity across U.S. borders between official ports 
of entry.
    \5\ See appendix II of our September 2009 report--GAO, Secure 
Border Initiative: Technology Deployment Delays Persist and the Impact 
of Border Fencing Has Not Been Assessed, GAO-09-896 (Washington, D.C.: 
Sept. 9. 2009)--for a summary of the task orders awarded to Boeing for 
SBI projects.
---------------------------------------------------------------------------
    In addition to deploying technology across the southwest border, 
DHS planned to deploy 370 miles of single-layer pedestrian fencing and 
300 miles of vehicle fencing by December 31, 2008. Pedestrian fencing 
is designed to prevent people on foot from crossing the border and 
vehicle fencing consists of physical barriers meant to stop the entry 
of vehicles. In September 2008, DHS revised its goal, committing 
instead to having 661 miles either built, under construction, or under 
contract by December 31, 2008, but did not set a goal for the number of 
miles it planned to build by December 31, 2008. Although some tactical 
infrastructure exists in all the southwest border sectors, most of what 
has been built through the SBI program is located in the San Diego, 
Yuma, Tucson, El Paso, and Rio Grande Valley sectors.
    My testimony is based on a report we are publicly releasing today 
\6\ that is the fourth in a series of interim reports on SBI 
implementation.\7\ My testimony will discuss the following key issues 
in our report: (1) the extent to which CBP has implemented the SBInet 
technology program and the impact of any delays that have occurred, and 
(2) the extent to which CBP has deployed the SBI tactical 
infrastructure program and assessed its results. Our full report also 
provides a status of SBI program office staffing and the progress the 
office reports in achieving its human capital goals. I will conclude 
with some observations regarding our recommendation and DHS's response.
---------------------------------------------------------------------------
    \6\ GAO-09-896.
    \7\ GAO, Secure Border Initiative: Observations on Selected Aspects 
of SBInet Program Implementation, GAO-08-131T (Washington, D.C.: Oct. 
24, 2007); Secure Border Initiative: Observations on the Importance of 
Applying Lessons Learned to Future Projects, GAO-08-508T (Washington, 
D.C.: Feb. 27, 2008); and Secure Border Initiative: Observations on 
Deployment Challenges, GAO-08-1141T (Washington, D.C.: Sept. 10, 2008); 
GAO-09-896.
---------------------------------------------------------------------------
    For our report, we reviewed program schedules, status reports, and 
previous GAO work and interviewed DHS and CBP officials, including 
representatives of the SBI program office and the tactical 
infrastructure program office; the Border Patrol (a component of CBP); 
and the Department of Interior (DOI). We visited three SBI sites where 
SBInet technology (Project 28) and/or fencing had been deployed at the 
time of our review.\8\ We determined that funding, staffing, and 
fencing mileage data provided by CBP were sufficiently reliable for the 
purposes of our report. More detailed information on our scope and 
methodology appears in our September 2009 report. Our work was 
performed in accordance with generally accepted government auditing 
standards.
---------------------------------------------------------------------------
    \8\ Project 28 was an effort to provide a technology system with 
the capabilities to control 28 miles of the border in Arizona.
---------------------------------------------------------------------------
 sbinet continues to experience delays, and border patrol continues to 
rely on existing technology that has limitations that newer technology 
                         is planned to overcome
    SBInet technology capabilities have not yet been deployed and 
delays require the Border Patrol to rely on existing technology for 
securing the border, rather than using newer technology planned to 
overcome the existing technology's limitations. As of September 2006, 
SBInet technology deployment for the southwest border was planned to be 
complete in fiscal year 2009. When last reported in February 2009, the 
completion date had slipped to 2016. In addition, by February 2009, the 
schedule for Tucson-1 and Ajo-1 had slipped from the end of calendar 
year 2008, and final acceptance of Tucson-1 was expected in November 
2009 and Ajo-1 in March 2010. As of April 2009, Tuscon-1 was scheduled 
for final acceptance by December 2009 and Ajo-1 had slipped to June 
2010.\9\ (See fig. 1 for schedule changes over time).
---------------------------------------------------------------------------
    \9\ The SBI program office defines final acceptance as the SBI 
program office taking ownership of the SBInet technology system from 
the contractor and comes before handing the technology over to Border 
Patrol. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Flaws found in testing and concerns about the impact of placing 
towers and access roads in environmentally sensitive locations caused 
delays. By February 2009, preliminary results of testing revealed 
problems that may limit the usefulness of the system for Border Patrol 
agents, including the instability of the camera under adverse weather 
conditions, mechanical problems with the radar at the tower, and issues 
with the sensitivity of the radar. As of May 2009, the SBI program 
office reported that they were still working with Boeing to address 
some issues such as difficulties aligning the radar.
    As a result of the delays, Border Patrol agents continue to use 
existing technology that has limitations, such as performance 
shortfalls and maintenance issues. For example, on the southwest 
border, the Border Patrol relies on existing equipment such as cameras 
mounted on towers that have intermittent problems, including signal 
loss. The Border Patrol has procured and delivered some new technology 
to fill gaps or augment existing equipment. However, incorporating 
SBInet technology as soon as it is operationally available should 
better position CBP to identify and implement operational changes 
needed for securing the border.
    Tactical Infrastructure Deployments Are Almost Complete, but Their 
Impact on Border Security Has Not Been Measured
    Tactical infrastructure deployments are almost complete, but their 
impact on border security has not been measured. As of June 2009, CBP 
had completed 633 of the 661 miles of fencing it committed to deploy 
along the southwest border (see table 1). However, delays continue 
mainly because of challenges in acquiring the necessary property rights 
from landowners. While fencing costs increased over the course of 
construction, because all construction contracts have been awarded, 
costs are less likely to change. CBP plans to use $110 million in 
fiscal year 2009 funds to build 10 more miles of fencing, and fiscal 
year 2010 and 2011 funds for supporting infrastructure. The life-cycle 
cost study prepared by a contractor for CBP shows that total 20-year 
life-cycle costs are estimated at about $6.5 billion for all tactical 
infrastructure--including pre-SBI infrastructure as well as that 
planned for fiscal years 2009, 2010, and 2011--and consisting of 
deployment and operations and future maintenance costs for the fence, 
roads, and lighting, among other things.


Table 1: Tactical Infrastructure Deployment Progress as of June 26, 2009
------------------------------------------------------------------------
                               Miles
                   Miles in   deployed    Total                  Miles
 Infrastructure     place     through    miles in              remaining
      type          before   SBI as of   place as    Target     to meet
                     SBI*     6/26/09    of 6/26/               target
                                            09
------------------------------------------------------------------------
   Pedestrian            67        264        331        358          27
       fencing
------------------------------------------------------------------------
Vehicle fencing          76        226        302        303           1
------------------------------------------------------------------------
Total fencing           143        490        633        661         28
------------------------------------------------------------------------
Source: GAO analysis of SBI data.
* Seventy-eight miles of pedestrian fencing and 57 miles of vehicle
  fencing were in place before the SBI program began. However, since SBI
  began construction, some miles of fencing have been removed, replaced
  or retrofitted resulting in mileage totals that are different from
  those we have reported in earlier reports.

    CBP reported that tactical infrastructure, coupled with additional 
trained agents, had increased the miles of the southwest border under 
control, but despite a $2.4 billion investment, it cannot account 
separately for the impact of tactical infrastructure. CBP measures 
miles of tactical infrastructure constructed and has completed analyses 
intended to show where fencing is more appropriate than other 
alternatives, such as more personnel, but these analyses were based 
primarily on the judgment of senior Border Patrol agents. Leading 
practices suggest that a program evaluation would complement those 
efforts.\10\ Until CBP determines the contribution of tactical 
infrastructure to border security, it is not positioned to address the 
impact of this investment. In our report, we recommended that to 
improve the quality of information available to allocate resources and 
determine tactical infrastructure's contribution to effective control 
of the border, the Commissioner of CBP conduct a cost-effective 
evaluation of the impact of tactical infrastructure on effective 
control of the border.
---------------------------------------------------------------------------
    \10\ In program evaluation, scientific research methods are used to 
establish a causal connection between program activities and outcomes 
and to isolate the program's contributions to them. GAO, Program 
Evaluation: Studies Helped Agencies Measure or Explain Program 
Performance, GAO/GGD-00-204 (Washington, D.C.: Sept. 2000).
---------------------------------------------------------------------------
    DHS concurred with our recommendation and described actions 
recently completed, under way, and planned that the agency said will 
address our recommendation. For example, DHS commented that it is 
considering using independent researchers to conduct evaluations and 
considering using modeling and simulation technology to gauge the 
effects of resource deployments. We believe that such efforts would be 
consistent with our recommendation, further complement performance 
management initiatives, and be useful to inform resource decision 
making.
    This concludes my prepared testimony. I would be pleased to respond 
to any questions that members of the subcommittee may have.

    Ms. Sanchez. Thank you, Mr. Stana, and I thank the 
witnesses for all of their testimony. I will remind each of the 
members that he or she will have 5 minutes to question the 
witnesses, and I will now recognize myself for some questions.
    Mr. Peters, in your testimony I think it was you who said 
that Project 28 has become a valuable enforcement tool for the 
last 18 months. That was part of your testimony, correct?
    Mr. Peters. Yes, ma'am.
    Ms. Sanchez. Because I am having a little problem really 
trying to understand what is going on out there, and I haven't 
been out there for a while, as you know, Chief. Originally, we 
all thought, a majority of us that Project 28 was actually 
going to be an operational system that was going to be able to 
be used by the CBP.
    And later we learned that no, now you all thought it was 
going to be a prototype where you would test different things, 
and that is about the point, at least the last time that I was 
out on the Tucson sector looking at it, Chief.
    And TUCSON-1 and AJO-1 actually overlapped Project 28. Am I 
correct? I mean, we spent the money to do Project 28. We 
thought it was going to be operational. It was just a prototype 
to test out different things.
    Now, you are telling me that it is operational and that it 
has been useful, but at the same time we are turning that same 
equipment out, and we are putting in new equipment across AJO-1 
and TUCSON-1, which have a big overlap with the original 
Project 28.
    So I guess my question is, if that is the case, why is Mr. 
Stana telling me that we have less capability or worse 
equipment on there? Was it cameras or radar that you were 
talking about, Mr. Stana?
    Why is it that it seems to me, not only were you falling 
behind in time, but were falling behind, and we are spending 
much more money, but now we have actually got technology that 
is worse?
    Somebody?
    Mr. Borkowski. How about I take that? I think what Mr. 
Stana was referring to in the old technology is the pre-SBInet 
technology. There is on the border things called remove video 
surveillance system cameras, those kinds of things. Those are 
technologies that have been placed, in fact, since before 2000.
    So the way I understood the report, and I think Mr. Stana 
actually did highlight the difference between that technology 
and Project 28, those are the technologies that the Border 
Patrol is essentially laboring with awaiting SBI, and I think 
that was the point of his testimony.
    Now against that backdrop, SBInet Project 28 is an 
improvement compared to those old systems but it is not the 
production system. So I think that is the context in which we 
are talking about the old technology.
    Ms. Sanchez. Mr. Stana, can you clarify that for me?
    Mr. Stana. Yes, a couple of different points here just for 
clarification. Project 28 was supposed to have a leave behind 
capability for 28 miles of the border. So your observation 
about why are we overlaying Block 1 stuff on Project 28 is a 
valid question.
    And the answer to that is, is Project 28, while useful to 
the Border Patrol in its current iteration, is not really what 
the Border Patrol needs most. I mean, they appreciate the help, 
and they appreciate the 5,000 apprehensions and the drug 
seizures and all, but it is really not the end game here.
    With respect to--in the meantime, until a better capability 
comes on board, the Border Patrol will need to use Project 28 
assets. We will have to use the RVSS' on the poles, as Mark 
mentioned, and other technologies, sensors that may not be tied 
to any kind of a COP. But until Block 1 comes on and its 
predecessors and the final design of SBInet is settled on, they 
are pretty much stuck with what they have got.
    Ms. Sanchez. Mr. Stana, let me ask you. Your report says 
that ``as of September 2006 SBInet technology development of 
the southwest border was planned to be complete in fiscal year 
2009. When last reported in February 2009,'' just this past 
February, ``the completion date has slipped to 2016.'' What 
were the reasons given for this?
    Mr. Stana. Well, I think that the contract that was signed 
by Boeing and DHS way back in September 2006, almost 3 years to 
the day, was very ambitious and probably overly ambitious.
    It called for a completion of the project on off-the-shelf 
technology largely, to integrate it and have Project 28 be the 
first iteration, and go forward and actually duplicate it with 
some modification up and down the border. It would be finished 
in 3 years.
    When they got into it they realized for a number of reasons 
that was overly ambitious and they didn't consult with the 
Border Patrol on design. There were some features there; didn't 
realize how tough it was; many lessons to be learned from 
Project 28.
    As the project has matured, they have realized other issues 
have cropped up. You know camera distance is a persistent 
problem. Radar clutter on windy or rainy days a persistent 
problem. And these are issues that they are still trying to get 
on top of.
    Ms. Sanchez. So from a technology standpoint, how close are 
we on TUCSON-1 and AJO-1 to actually be able to use something 
that is operational, that is at the capability we had imagined 
in the beginning after getting through Project 28?
    We would have for the Border Patrol to actually be able to 
see people moving, decide where to go and apprehend them, et 
cetera, because you tell me you have looked at it on a day or 
two when they didn't know you were coming in and on a windy day 
it all fell apart.
    Mr. Stana. Well, I am not really sure where we are right 
now. I think it is good that testing is being done. There is 
retest plans, re-planning, lots of testing and that is good. 
The thing that, I guess, is of concern is that the testing is 
finding two things. One is that the testing is finding the same 
general kinds of problems with the hardware and the interface 
and the software.
    Ms. Sanchez. The same ones as Project 28 had?
    Mr. Stana. Well, I mean, if you look at camera distance, 
which was a problem with 28, radar clutter was a problem with 
28. Some of these issues are being addressed.
    But I am not so sure, and we won't know until it is 
ultimately deployed in January and the Border Patrol takes over 
for operational testing exactly whether this is going to yield 
the product that the Border Patrol finds operationally 
effective. We just won't know until that kind of testing is 
done.
    The other concern we have is with the way testing was 
designed and executed, and we have another team in GAO, our 
information technology team that is looking at those issues. 
They have surfaced some concerns. Their work will be completed 
in the next few months.
    Ms. Sanchez. Thank you, Mr. Stana. I mean, this is 
important. I also want to come back at some point to talk about 
the measure and whether we are really going to measure what 
resources ultimately we are going to have to put towards this 
if we ever get SBInet to work enough for you to be able to use 
it confidently, if you will, Chief Aguilar.
    But in the interest of time, I know there is so many 
members who have questions, I will now recognize for 5 minutes 
my ranking member, Mr. Souder of Indiana.
    Mr. Souder. Thank you, Madam Chair. First for the record, 
Congressman Miller and I on June 8, 2009 asked for a copy of 
the northern border action strategy, and we would appreciate an 
answer.
    Also, on July 31, 2009, a month-and-a-half ago, three 
ranking members from Government Reform and Oversight, Natural 
Resources and this committee plus two subcommittee ranking 
members, myself and Congressman Bishop asked for the Fish and 
Wildlife and the Department of Interior overlap with DHS and 
would appreciate answers to those letters.
    Let me plunge directly in where Chairman Sanchez was 
headed. I think that Mr. Stana's point about ``overambitious'' 
is an incredible understatement that some of us raised concerns 
in the beginning, not about the partners, but about the 
concept.
    You have hilly areas of the border, particularly in that 
area from Nogales over to where it flattens out by Organ Pipe 
in the Ajo area. In my district when I am going back and forth 
between Warsaw and Fort Wayne any little bump, yet alone the 
hills like in California, will cause me to lose my cell phone 
service.
    It wasn't too hard to figure out that when you have relay 
towers, particularly when this subcommittee group visited it as 
a group and we saw the tall towers to try to address that, that 
the wind was going to blow that.
    We already knew that from the military. This would have 
been transferable information, and I don't believe there was 
adequate advanced planning before plunging into this contract 
about the realism of it.
    Now what--in TUCSON-1 they have addressed challenges with 
some smaller towers some taller towers. They are trying to 
overcome some of the conceptual flaws of how you do this 
transmission of technology in a mountainous area, how that is 
different in the flat areas.
    There aren't continual flat areas anywhere along that 
border. Chief Aguilar did some of this over by Douglas in the 
early primitive forms that kind of identified how do you tell?
    In fact, the first time I was at the--I just blanked on the 
airbase in Saudi Arabia after Khobar Towers before 9/11, they 
couldn't tell even with far more expensive military technology 
the difference between a tumbleweed and terrorists coming up on 
Prince Sultan Air Force Base.
    One of my questions has been repeatedly how do we get 
military technology, which we have already paid for in the 
government, transferred into border technology?
    I have IGT Aerospace, Raytheon, General Dynamics, USSI, DAE 
all in my district, all who do electronics warfare and so on. I 
have been talking to them. SBInet is incredibly cheap compared 
to anything we do in the military.
    And we are trying to do what they are doing in tracking 
terrorists and what they are doing in military on the cheap, 
and it has been a struggle. As we get into some of the 
particulars, let me ask Mr. Peters a question, in your 
contract, because early on we saw that there wasn't pre-testing 
prior to coming to the border, you built a testing center, is 
that correct?
    Mr. Peters. Yes, sir, that is correct.
    Mr. Souder. Did the government fund that, or how much of 
that was funded by government versus private?
    Mr. Peters. Government-funded, and Boeing has also made 
some contributions to that capital.
    Mr. Souder. Significant?
    Mr. Peters. I don't know the number off the top of my head, 
and I will get that for you.
    Mr. Souder. And was your contract on Project 28 a fixed 
cost, and then you absorbed anything that ran over that cost. 
Is that true?
    Mr. Peters. Yes, sir. The deployment of the P28 prototype 
was a fixed cost, and then the Boeing Company brought its 
resources to complete the project.
    Mr. Souder. Would you say that you have contributed double 
what the government did?
    Mr. Peters. Yes, sir, approximately two-times.
    Mr. Souder. And in TUCSON-1 how is that working?
    Mr. Peters. TUCSON-1 is a different contract, and so we 
are, you know, we are working to deploy that. We are currently 
partway through our SQT, our system qualification test, and we 
will move into our system acceptance test later this fall.
    Mr. Souder. The government challenge now is, is that when 
we invest in something that we basically had too optimistic and 
ambitious goals and now have this kind of investment. If we 
switch the partnership group that we have, we lose the testing 
center and we lose a lot of what you have invested in your 
private funds, or do we have to pay you for that?
    Mr. Peters. You will certainly lose the non-recurring 
engineering that, you know, has spent over the past 2 years on 
TUCSON-1. And then we would have to look at specifically what 
portions of the Playas site were, you know, Boeing-funded and 
which were government-funded.
    Mr. Souder. And we need to understand it because we run 
into this in military contracting, that this type of contact 
that we have here where they had to do the cost overruns puts 
us in a different situation as we develop future alternatives.
    Mr. Borkowski, one of the overly ambitious, to use Mr. 
Stana's words, was that this was going to be able to be 
communicated to the vehicles. Does that appear realistic, and 
is that in the future proposals because that would be a great 
advance? But I know what these systems cost when we transfer 
them to Humvees, and it is nothing like the cost of what you 
are proposing to do.
    Mr. Borkowski. Correct, sir. The SBInet Block 1 does not 
include the mobile data terminals, and for several reasons. One 
is the cost of creating the capability. The other is the 
operational experience and the ConOps that we gained. It is a 
question of do we really get benefit from that. So SBInet Block 
1 does not include mobile data terminals to deal with those 
kinds of questions.
    Mr. Souder. And Tucson won't either, TUCSON-1?
    Mr. Borkowski. Correct. TUCSON-1 is the first deployment of 
the so-called SBInet Block 1. So the plan for the system will 
not include it.
    Mr. Souder. I see. Then so the goal is to go to a center, 
and then the center communicates it to the vehicle.
    Mr. Borkowski. Correct.
    Mr. Souder. Which is a difference from our original 
conception of the program?
    Mr. Borkowski. Correct.
    Mr. Souder. But there was no way to cost effectively do the 
other?
    Mr. Borkowski. Correct. Now we are still looking at options 
if they are required downstream, but they are not in the 
baseline at this point.
    Mr. Souder. Because to some degree in the mountainous areas 
it is easier to get in behind and send the people there than to 
try to figure out how to transmit this data into a vehicle when 
the terrain is going up and down. Is that not correct?
    Mr. Borkowski. Correct. That is absolutely correct.
    Mr. Souder. Thank you. Yield back.
    Ms. Sanchez. I thank the ranking member.
    I will now recognize the chairman of the full Committee of 
Homeland Security in the House, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much. Continuing somewhat 
along the line of your questioning and the ranking member's, 
earlier this year the Border Patrol agents had an opportunity 
to operate the newest SBInet technology at the Boeing test 
facility.
    We have already heard that according to GAO the agents 
indicated that on windy days the radar had an excessive number 
of false detections, which is one of the same problems that 
plagued Project 28.
    But the agents also compared the new camera technology to 
the existing Project 28 and mobile unit cameras and said that 
the new cameras did not even measure up to the existing ones. 
Now, is this true?
    Mr. Borkowski. It is true that that was the conclusion of 
the agents, yes. Those are true statements.
    Mr. Thompson. So the agents don't know what they were 
talking about?
    Mr. Borkowski. No, that is what the agents experienced. But 
one of the reasons for doing the operational assessment, which 
was informal, was to test some other things like how well did 
we explain the operation of the system.
    How well did we train the operators to use the system? They 
are familiar with, for example, Project 28, and a lot of these 
operators are familiar with the mobile surveillance system.
    So one of the reasons for doing that operational assessment 
was to collect that information, figure out what the problem 
was, what was the cause of that, and then if in the actual 
deployment that really is an issue. So that was the purpose of 
that was to collect that information.
    Now, in many cases we don't think that that problem 
persists into SBInet Block 1 as deployed in TUCSON-1, but 
again, that is with the formal operational test and evaluation.
    Mr. Thompson. So if your testimony to the committee is that 
it happened, but there were some reasons for it happening, and 
it has been corrected.
    Mr. Borkowski. We believe so. And again, we will see for 
sure in the operational test and evaluation but we believe so.
    Mr. Thompson. Mr. Stana, would you want to comment?
    Mr. Stana. Well, first that is why you have testing is to 
get the bugs out of a system. In this case the Border Patrol 
agents who tested the system found the bugs that you described, 
among others, and there was a cause for concern.
    The concerns they raised were some on the COP, all the 
components were integrated, but some was with the hardware 
itself. If the camera range issue and the radar flutter issues 
are corrected, I guess I would have to see that in testing 
before I would buy that, you know, just right away. But that is 
why we have testing and that is why the operational testing by 
the Border Patrol in January is going to be very telling.
    Mr. Thompson. Madam Chairwoman, I have a diagram I want to 
put on the screen. Well, so much for technology. We have had 
the information distributed to our witnesses, and what you have 
before you is the original concept behind SBInet. And what I 
really want to do is to have you to explain to the committee 
what specific steps Boeing has taken toward making this 
technology depicted in this diagram a reality.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Borkowski. Are you asking that question----
    Mr. Thompson. Well, I guess both Mr. Peters and yourself.
    Mr. Borkowski. Okay. The Project 28 which was a prototype, 
although to be fair not properly advertised as such, attempted 
to test this concept of operations and to learn from it. So it 
did have things like satellite communications. It did have 
things like the mobile data terminals. It did have the kinds of 
things that are depicted here.
    Based on that experience, SBInet Block 1 is a different 
concept. It is a concept that uses microwave communications and 
relay towers to send the information from the sensors back to 
the station and then at the station for agents to dispatch 
others to respond.
    So this concept is not the concept of SBInet Block 1 based 
on the lessons learned from Project 28 and the current estimate 
of the operational needs of the Border Patrol.
    Mr. Thompson. So it was changed?
    Mr. Borkowski. Yes, it was.
    Mr. Thompson. Did that reflect the change in pricing or 
just the change in technology?
    Mr. Borkowski. The Project 28, which as we discussed was a 
firm fixed price, did overrun, but Boeing had to absorb those 
costs.
    As we have designed the new system, that new system is put 
on by new task orders which are like new contracts. I mean they 
are all on this basic contract. And they are priced based on 
what we know or anticipate we want to do next.
    And the go-forward is priced--and by the way, that is a 
cost reimbursable contract, that means the government will pay 
what it costs--so those are estimated based on the current 
concept.
    Mr. Thompson. Mr. Stana, based on what you just heard, is 
that a generally accepted procurement procedure?
    Mr. Stana. Well, I think it is a generally accepted 
approach to begin with a project and build on what you can 
actually make work. That is fine. What is missing here and I 
don't know if it is fair to as the Congress to consider a $6.7 
billion investment, if we really don't know what the end-game 
is going to look like.
    And I know there is some development that goes on here, but 
what this seems to articulate to me is this is someone's vision 
of the end-game where you will have maybe satellites, UAVs, 
sensors, mobile units and so on, and I don't know how much of 
that is still on the table in the out years. So there is just a 
lot of uncertainties.
    Mr. Thompson. Well, I think the whole issue of the 
procurement is what kind of has us in the weeds most of the 
time, when we are trying to figure out exactly where we are, 
and perhaps we can get some further direction. Chief, you might 
be able to help us at some point in trying to clear this up.
    I yield back, Madam Chair.
    Ms. Sanchez. I thank the Chairman.
    And I will now recognize Mr. McCaul, of Texas for 5 
minutes.
    Mr. McCaul. Thank you, Madam Chair. Thank the witnesses for 
being here. Recently I went down to the El Paso Intelligence 
Center, EPIC, and at that point in time, Juarez was and still 
is in a state of crisis. It is probably the most violent city 
in the American continent.
    President Calderon has said he is in a war with drug 
cartels and I mention this only to frame the issue. That is 
really why we are here today. That is the threat. That is why 
getting operational control of the border is so important.
    They showed me the fence that had been--the physical fence 
that had been built in El Paso which has allowed Border Patrol 
to gain more operational control. But while the physical fence 
is nearly completed, progress along the lines of a virtual 
fence using technology, in my view, has barely begun.
    And I wanted to reference to a--it is an unclassified 
notation in a DHS intelligence report saying that ``drug 
trafficking organizations operating in Chihuahua, Mexico use 
some 300 identified makeshift crossings at low points along the 
Rio Grande between El Paso and Presidio.'' This is according to 
a Mexican government study cited in a Juarez daily newspaper.
    And this unclassified map from the DHS intelligence report 
shows Chihuahua and the main drug trafficking locations. 
Despite the evidence that this Mexican state is a source of 
significant drug trafficking and violence, it is alarming to me 
that the SBInet project does not anticipate deploying 
surveillance technology to this section of the Texas--Mexico 
border, including the Marfa and Del Rio Border Patrol sectors, 
until after the year 2014 at the earliest--2014.
    We have completed the physical fence. Virtually, to the 
point, why in the world does this take so long to do?
    Mr. Borkowski. What we have tried to do is come up with 
what we think is a reasonable and prudent and acceptable 
budget, an ambitious but acceptable budget. So essentially the 
plan that you are describing is a plan that we put forward as 
how much could we do with the most budget that we could 
reasonably expect to ask for?
    Now, that is not necessarily, by the way, the budget we 
will get but that was the plan we laid out. The idea I think is 
to get through this SBInet Block 1 to a point where we can then 
start stamping these out, essentially, as production.
    And then the pace of that depends on funding, one, and then 
two, any desire to build off of SBInet Block 1, is there 
anything I want to change in it, as I go into other areas? But 
that is fundamental where that pace came from. It was the most 
that we thought we could reasonably ask for in funding, which 
is not necessarily what we will get, okay, so that all has to 
be focused in on this, too.
    Mr. McCaul. Well again this is--we are spending a great 
deal of money up here in Washington, and yet we still can't get 
this border situation under control. And it seems to me we 
ought to be investing more in this technology to get this thing 
done more rapidly than the year 2014.
    You know, my constituents and the American people want this 
done, and they don't want to wait 5 years to see this thing 
completed. My governor, Texas Governor Rick Perry, in the mean 
time because of the crisis down there, has requested 1,000 
National Guard troops be deployed and has asked for that from 
the federal government.
    He has not received any response as I am aware to date. Can 
you tell--can anyone on this panel speak to that request?
    Chief Aguilar. The request that Governor Perry has made is 
still be worked out, being looked at between DHS and DOD. At 
this point I cannot give you an update. I will get you what we 
have as soon as we can, sir.
    Mr. McCaul. Well, I would hope the secretary would respond 
to the letter. I think it is important, particularly if we 
can't get this technology done by the year 2014. It seems to me 
it is a good idea to get more human manpower and resources down 
there on the border. Chief Aguilar, would you agree with that 
comment?
    Chief Aguilar. Absolutely. Any kind of capability that we 
can get down to the border as fast as possible is going to help 
us secure our border. Just in fairness to Mr. Borkowski out 
here as to the question that was asked, the lay-down plan, 
given the capability requirements that we have identified from 
a technology systems base is what gets us to Texas in 2014.
    That is not necessarily saying that is when we want to get 
there. We would like to get there yesterday, but of course what 
we are--what we have identified is the capability requirements 
package that they are working to create, and given the budget 
that we think we are going to get, that is that lay-down plan 
timeline for Texas.
    Mr. McCaul. Thank you, Chief.
    And Madam Chair, I hope we can, on this committee and Mr. 
Chairman, the full committee, work to speed up this process, 
make it more efficient, more functional so we can finally get 
operational control of this border. And with that, I yield 
back.
    Ms. Sanchez. I think there is nobody in disagreement with 
you on this committee. As you know, Mr. McCaul, we have been 
working on this for a while.
    I would like now to recognize one of our members who 
actually represents a border area with some of the most 
crossings. I believe that would be Mr. Cuellar at this point. 
Are you ready to go, Mr. Cuellar?
    Mr. Cuellar. Yes, Madam Chair.
    Ms. Sanchez. Okay.
    Mr. Cuellar. Thank you very much for your leadership in 
having this meeting. First of all, I want to thank the 
witnesses for being here, and one of the questions I have, GAO 
and the other committee I sit in, in Government Oversight 
Reform, just came out with a report just a couple of days ago 
criticizing Homeland and the billions of dollars that they have 
invested in technology.
    And saying that it is--I guess you are one of the at risk 
agencies that we have subject to fraud, abuse, et cetera on 
that, so start off with that background. And again I appreciate 
everything that you all do, but I guess it gets us a little 
frustrated. Being on the border, I have lived near the border 
and, Chief, you are from the area and you know what it is.
    I mean billions of dollars have been invested but, you 
know, if we don't do our work correctly you are going to have 
governors saying we have got take things in our hands. For 
example, Governor Perry came up with saying that he was going 
to send this, ``elite Texas Rangers,'' which I know because I 
used to do the budgets for the Texas Rangers.
    Do you know--did they coordinate with you in any way or 
form?
    Chief Aguilar. Yes, sir. In fact the Texas Rangers were 
actually trained by our national tactical team, BORTAC.
    Mr. Cuellar. Okay. Knowing their budget, do you know how 
many are coming down to the border?
    Chief Aguilar. I don't know how many are coming down. I can 
tell you that I believe there was about 15, give or take a few, 
that were actually trained by our tactical unit.
    Mr. Cuellar. Okay, so what Governor Perry is talking about, 
just 15 Texas Rangers that will come in and supplement the work 
that you are doing?
    Chief Aguilar. Yes, sir. I will additionally state that the 
Rangers, DPS and the county sheriffs have always worked very 
closely with us in the past.
    Mr. Cuellar. Well, I am talking about this new elite Texas 
Rangers.
    Chief Aguilar. Yes, sir.
    Mr. Cuellar. So 15 for the record, 1,200 miles for the 
Texas border?
    Chief Aguilar. Yes, sir, 1,200 miles, 15 that we trained. 
Yes.
    Mr. Cuellar. All right. The other thing is is the--and I 
appreciate the work that Boeing has done. I know there have 
been questions about the work, but the Defense Department has 
been working on pilot programs. And I don't know if they have 
done a pilot program close to Wilmot, Texas in my district 
there. I think they just finished one in the northwest.
    And in sitting down with them, and--is they are saying 
that, you know, instead of millions of dollars for a, let us 
say, five-mile radius, they are saying that they can do this in 
the tens of thousands. And Mr. Borkowski, I think you and I, 
Borkowski, we spoke a little bit before, you said it is not 
really what they are, you know, they are--it is not up to par.
    But you know, I still go back and I have seen some of the 
work, but if it is military--and I think, Mr. Souder, I think 
you might have mentioned this before I got in--but if it is 
military tested and they have done this in the heat--that was 
one of the reasons why we had trouble on the SBI at the very 
beginning.
    They have done this before. It is proven, and it is in the 
tens of thousands of dollars, why the heck are we paying 
millions of dollars when we can do this in the tens of 
thousands for the same length that we have?
    Mr. Borkowski. Certainly, if we can do what we need to do 
for tens of thousands, we would like to see that and look at 
it. We would be happy to look at that.
    We are actually and have talked to parts of the DOD. It 
turns out the applications they are talking about compared to 
our needs don't always match quite the way they might think. 
However, I do spend 3 to 6 hours on an average week, talking 
with Department of Defense people on their proposals, talking 
with various vendors and contractors because we actually are 
trying to collect a reservoir of other technologies.
    So that we can start, as we gain experience with the SBInet 
and we are able to measure its effectiveness and we gain 
experience with some of these other systems, we can start 
picking and choosing what we put where. So we would be very 
interested in looking at those.
    Mr. Cuellar. Okay. Mr. Chairman, I have sat down with these 
folks several times, and I will ask both, Madam Chair, I would 
love for you all if we could sit down and do a briefing, Mr. 
Souder, because with all due respect, if we could have maybe 
Boeing and the departments sit down with the Defense.
    I have seen this presentation and unless if I am missing 
something I would like for somebody to tell me that I am 
missing something on this, but if we can do the same range for 
tens of millions, military tested equipment, it has been 
proven. It is cheaper to the taxpayers' dollars. It is quicker 
to implement. Why can we not do that? Mr. Chairman or Madam 
Chair, if you want to set that up?
    Ms. Sanchez. Mr. Cuellar, actually, as you know, I sit on 
the Armed Services Committee so we have been talking to the 
Department of Defense and we have set up a briefing next week 
to take a look at some of the applications that they have.
    I think DHS is correct in saying that they don't exactly 
match up, but we will have the briefing and an informational 
meeting so that we can take a look at it and then we can 
decide, since we set the policy, the Congress does, as to 
whether what the Department of Defense has done in other areas 
like Iraq and all and looking at the borders.
    For example, whether that technology, because it tends to 
be less expensive than what we are experiencing here, whether 
that is applicable and that whether that really, you know, 
blankets or allows us to feel the confidence level we need at 
our border.
    Mr. Cuellar. Well and again I--yes. I would like to talk 
to, you know, sit down because again I have seen this and being 
on the border, having this type of technology is better than 
waiting for years and years and years for something. And if we 
can do this at tens of thousands of dollars, I would like to 
see this sit down so, I want----
    Ms. Sanchez. Unless it gets the job done, I think all of us 
would like to see it. Thank you, Mr. Cuellar, for your 
questions.
    Mr. Cuellar. Thank you, Madam Chair.
    Ms. Sanchez. I will now recognize my good friend from 
Florida, Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much. Mr. Peters, share with us your perspective on lessons 
learned from previous SBInet deployments and areas that the 
department and Boeing can improve upon to ensure future 
deployments are completed in as timely and cost effectively as 
possible.
    Mr. Peters. Yes, sir, be happy to do that. Probably the 
biggest lesson learned we took away or one of the major ones 
was the establishment of a test facility in an environment 
similar to what you are going to be deploying in, and that 
would be Playas, New Mexico test bed that we established.
    Another one was the early user involvement. We talked about 
P28 being a prototype system developed predominately by 
engineers. We got very valuable, useful feedback from the 
users, when they looked at that P28 prototype system, in terms 
of the human-machine interface. We were able to incorporate 
that back into the actual Block 1 system design.
    We also learned lessons, going back to Mr. Thompson's 
diagram, learned lessons about latencies that were in the 
system, the P28 prototype used a Ku band satellite 
communication system and it introduced latencies into the 
system. So we knew we had to take those out and we went to a 
microwave line-of-sight-type communication system in the Block 
1 design.
    We learned, as we talked earlier, about the wind moving the 
radar around and introducing clutter into the system, so we had 
to introduce clutter rejection algorithms into the design. So 
those things--P28 was a very valuable, and that is why I had it 
in my opening statement, P28 was a very valuable engineering 
tool.
    In addition to being an enforcement tool for the Chief and 
the Border Patrol, it was a very valuable engineering tool for 
us to take those lessons learned and introduce them into the 
Block 1 design, which is what we will take out to the field, at 
both Tucson and Ajo.
    Mr. Bilirakis. Sorry about that. Is the department 
satisfied with the contracting vehicle for SBInet? Does it 
provide sufficient protections for taxpayers, if the system 
doesn't work? Does it prevent large cost overruns, and for 
example, are there disincentives or penalties for contractor or 
missed deadlines or program errors that cause delays?
    Mr. Borkowski. In general, I would say that the contract we 
have is awkward. It is not the contract, in hindsight, that 
probably we should have. It does have the capability to do 
incentives and disincentives.
    Ultimately, the responsibility though for holding the costs 
and--it is basically the government program management. The 
contract is a standard contract. It is a standard type of 
acquisition. It gives us the tools that we do need.
    It includes elements like award fee and incentive fee, 
which adjusts profit based on performance of the contractor. 
And as we put additional tasks on, we are in the position where 
we put disincentives.
    For example, on the northern border, there are schedule 
incentives, and if schedules are missed there are penalties for 
missing them. There are also other kinds of tools that we have 
outside of the contract.
    But I would say that the contract as it is structured is 
awkward, and as we get to the point where we have this kind of 
production system that we can start stamping out, we are going 
to need to look at how do we get out from under the structure 
of this contract.
    Mr. Bilirakis. Thank you.
    Mr. Stana, in your testimony you noted the concerns about 
the impact of placing towers and access roads in 
environmentally sensitive locations have caused SBInet 
deployment delays. Has GAO quantified the impact these 
environmental concerns have had on technology deployments 
relative to the other factors that may be slowing this project 
up?
    Mr. Stana. Well, there were three factors that really 
tugged at the pace at which the SBI Block 1 was being fielded. 
The environmental concern was one. There was some confusion 
whether the provisions of the Secure Fence Act applied to the 
SBI program. Turns out it didn't, so they had to go through 
some environmental procedures to place the towers and roads.
    The other two were the fencing, you know, getting money 
reallocated to complete the fencing as much as they could by 
the end of 2008. And the third is is the SBI program just 
wasn't ready for full fielding. They had to re-plan and retest.
    So even if the environmental concerns weren't there, it is 
not to say that, you know, they would have met the 2008 date 
that they originally put out there because there were retest 
and re-plan issues out there.
    We couldn't tell exactly how much each one of those factors 
tugged, but the fact is that the delays persist and it is not 
only due to environmental issues. There were other testing 
issues and the appropriateness and the readiness of technology 
to be fielded issues that were still there.
    Mr. Bilirakis. All right, thank you very much.
    Thanks, Madam Chair.
    Ms. Sanchez. The Chair recognizes Mr. Thompson for a 
comment.
    Mr. Thompson. Thank you.
    Mr. Borkowski, you said the contract was awkward. For the 
committee's information, who developed the contract?
    Mr. Borkowski. Ultimately we are responsible for that 
contract so we developed it, and we are responsible for its 
nature.
    Mr. Thompson. So I would assume that because we now know it 
was an awkward contract, we won't enter into any more awkward 
contracts?
    Mr. Borkowski. I can't promise that. I hope that we learn 
our lessons from these kinds of experiences. I have the 
contract I have, and I have to make the most of it until I am 
in a position, a reasonable time position to fix it, but----
    Mr. Thompson. Maybe I need to ask the Chief.
    Ms. Sanchez. The Chief, I don't think, had anything to do 
with the contract because he wasn't--weren't you not allowed to 
even suggest deployment or----
    Chief Aguilar. At the beginning we were not involved in the 
contract, and it would actually be a CBP responsibility over 
all as to how the contract is actually designed, sir. And I 
would agree with Mr. Borkowski that at the most opportune time 
we will look for a realignment, if you will, where it can be 
done because I agree with Mr. Borkowski. It is an awkward way 
of doing business.
    Ms. Sanchez. So let me ask you something because I am told 
that it is a possibility you may be doing add-on or you may be 
extending in the very near future. Does that mean the extension 
or the add-ons are going to be all awkward also?
    Mr. Borkowski. The extension of the contract is done and 
the contract itself has what are called task orders, which are 
essentially subcontracts. And that is what makes it awkward 
because the elements of each of these task orders are really 
connected, but they look like they are independent contracts 
and that is the awkward part.
    Now, the way that we are managing that now is we have 
imposed requirements on the contractor to connect those so we 
can work around it. And certainly, though, in the future to the 
degree that I am in control of the design of the contract, we 
would not do this in the future, but it is what we have.
    Ms. Sanchez. I believe, Mr. Souder, I will recognize you. 
You had a comment also.
    Mr. Souder. Yes, and I think it is important that Mr. 
Peters also acknowledge that it was a tad awkward on your side, 
and that generally speaking Boeing does not have the principle 
of entering into contracts that cost you more than two times 
what you get?
    Mr. Peters. Yes, sir, it is an awkward arrangement 
particularly in a development contract where, as Mr. Borkowski 
said, you have multiple task orders and they are linked 
together but contractually they are treated as separate.
    That is what makes it awkward. That is what makes it slow 
and inefficient for the contractor and customer relationship.
    Mr. Souder. And it is fairly safe to say that, if this 
project ended now, it would have been an experience you would 
have rather not been in. The assumption here is that if Boeing 
can continue it maybe you can recoup back to even.
    But one thing that needs to be pointed out here is there 
was not an enrichment of the private sector in this contract. 
This was just basically way over-promised and everybody has 
lost their shirt, so to speak on it, so far.
    Mr. Thompson. Well, but I think the record needs to reflect 
that this was a competitive process. It was not a sole source. 
So Boeing knew they had risk going in and that risk is----
    Ms. Sanchez. Supposed to be borne by the private sector.
    Mr. Thompson. Absolutely. Thank you.
    Ms. Sanchez. Okay. Ms. Kirkpatrick, you have been very 
vigilant over there waiting for your turn, so I will recognize 
you, also from a border state, from Arizona, Ms. Kirkpatrick 
for 5 minutes.
    Ms. Kirkpatrick. Thank you, Madam Chairman, it is an honor 
to yield to the esteemed colleague from Texas, Mr. Cuellar, so 
I don't mind waiting. Thank you, panel, for being here.
    The security of our nation depends on maintaining 
operational control of our borders, there is no question about 
it. And if the SBInet is able to meet our ambitions, it will be 
a valuable tool in achieving this control.
    However, time-after-time, officials from DHS and Boeing 
have come in and told Congress that the program is back on 
track, that past problems have been resolved and everyone is 
ready to move forward. And time-after-time we later find out 
the old problems have not been fixed and there continue to be 
delays.
    Today we are hearing again the same story. After months of 
being told SBInet is back on track and ready for deployment, 
the GAO is reporting that the technology has many of the same 
flaws it has had for years. This program is too important to 
keep messing up and needs to get back on track.
    Mr. Stana, how much closer are we now than we were 2 years 
ago to having an operational system that works the way we have 
envisioned without the operational shortfalls that have been 
evident in the past?
    Mr. Stana. That is a good question, and I don't have a 
complete answer for you. What I do know is that the testing 
regimes that have been designed for Block 1 are more rigorous 
than they were for Project 28 and there were some lessons 
learned from Project 28 that have been incorporated in the 
design of the Block 1.
    On the other hand, we are seeing the same kinds of issues 
that we have seen in camera projects dating back into the 
1990s, you know, about camera range and reliability and flutter 
and these kinds of things. So I guess we will find out when it 
goes to operational testing.
    I share your concern about the optimism. I think Mr. Peters 
is the third Boeing Vice President that I recall here at the 
witness table, and each time there has been an optimistic 
assessment, and I can understand coming from the contractor why 
that would be.
    But I think we have to wait and see exactly what is 
delivered and is it operationally efficient and effective for 
the use of the Border Patrol.
    Ms. Kirkpatrick. The second part of my question is why are 
we not testing until January of next year? Why don't we start 
testing now, the operational test?
    Maybe, Mr. Peters, you can answer that.
    Mr. Peters. We actually are testing but there are phases of 
tests. There is the test that, you know, the contractor has to 
sell this off to me as the engineering geek, okay. And so we 
are going to do that and that is going to start here shortly. 
In fact, some of it has already started in Tucson.
    At that point, I am going to make a conclusion about 
whether Boeing gave me what I thought they were supposed to 
give me. When that happens--now, my customer is the Chief of 
the Border Patrol.
    Now, I am going to turn that over to the Chief of the 
Border Patrol and he is going to make whatever conclusions he 
chooses to make. That is the testing we are talking about 
starting in January, so there are steps to get to that.
    Ms. Kirkpatrick. Can that be accelerated?
    Mr. Peters. We hope it can but again the schedule that we 
have given you is the schedule that we think is reasonable. 
Again, you know, there are risks, as Mr. Stana says, and I 
don't want to over-promise. I want to tell you think we have 
done the best we can at this point to give us the most 
confidence in that.
    We will try to accelerate if we can. We are already working 
with Boeing on that, but we are not confident that we will 
succeed.
    Ms. Kirkpatrick. All right. I appreciate your desire not to 
over-promise. We do not need that now, but we do need a system 
that is operational. Thank you. I yield back.
    Ms. Sanchez. Thank you, Ms. Kirkpatrick.
    I will now recognize Mr. Rogers for 5 minutes.
    Mr. Rogers. Thank you, Madam Chairman. Thank the witnesses 
for being here. You know, a little over 4 years ago when I was 
chairing the MIO subcommittee we did an investigation into ISIS 
and just thought surely that could never happen again. And it 
seems like this is eerily similar to the outcome that we saw 
from that debacle but with a lot bigger numbers.
    I would ask Mr. Borkowski and Mr. Stana, could you tell me 
why you think we have let it happen again?
    Mr. Borkowski. I can't tell you why we think we have----
    Mr. Rogers. But with much bigger numbers.
    Mr. Borkowski. Right. The only thing I can tell you, sir, 
is that I think that we have had to build our own competence in 
managing a program like this and then learning what you have to 
put in place.
    And some of the things that we put in place at the start of 
this program, in hindsight, were not effective. And so now we 
are in a position where we can either stop and start over or we 
can fix as much as we think we need to fix to make the risk 
going forward prudent, and that is exactly what we are doing, 
and there are risks in that approach.
    So we are trying to fix what should have probably been 
fixed before this program, but we are doing it in the process 
of delivering it, and I can't explain how we got here.
    Mr. Rogers. And I just don't understand, just from a 
technical standpoint, why it is so difficult. I mean, they are 
basically cameras on a pole, and we have got folks monitoring 
multiple cameras in a dispatcher format.
    I have been out there and I have seen them, and I just 
don't understand why we are having problems. This is not the 
most sophisticated technology that our country has. As you just 
heard the Chairwoman, what we are doing in Iraq is much more 
sophisticated.
    Mr. Borkowski. In some ways it is and in some ways it 
isn't. And one of the keys things here--well, first of all, 
there are two things going on here and I will use a little bit 
of an analogy because what we bet on--and it was probably not a 
good bet--but what we bet on was that this was like buying a 
new printer for your computer, and you are supposed to be able 
to plug it in, when you go home and, you know, the printer is 
supposed to work.
    When I do that half the time the printer doesn't work. It 
is supposed to, but it doesn't, and I have to go get the CD-ROM 
and cram it into place and I will eventually get it to work. 
That is one factor.
    The other is I think we miss the point sometimes that this 
is a network system, okay. That is very important. This is a 
network system. All of these towers are connected and what that 
means is that you have got, in the case of TUCSON-1, nine 
radars, nine infrared cameras, nine electrical optical cameras, 
all coming together into one pipeline, one communication 
pipeline.
    So there is the process you have to go to manipulate the 
data from those things to get them all to fit in that pipeline.
    Mr. Rogers. And I understand that, but my point is that is 
basic technology. We do it here. We have all sorts of 
information systems here that if we move around just in this 
one building, just in this one hearing in the televising of it. 
This is not rocket science. And I don't understand why we can't 
do that networking along that border in a more effective way.
    Mr. Borkowski. We can, and if we had started with the 
assumption of let us look at the requirement, let us look at 
what bandwidth we have and so forth and designed systems, we 
probably would have been okay, but we didn't.
    We started with the assumption that we can plug these 
things together and it will fit. And once we did that we were 
in trouble because when it didn't fit, we hadn't started from 
that normal, natural beginning and now we had to make it fit. 
And so we started the wrong way in my opinion.
    Mr. Rogers. That is true.
    Mr. Stana, you used a figure of $6.7 billion a little while 
ago. What was that figure about?
    Mr. Stana. That is the total estimated cost of SBInet from 
fiscal years 2007 through 2014. And it is not a lifecycle.
    Mr. Rogers. So that is what I was going to get at. Nobody 
knows how much this is going to cost.
    Mr. Stana. Well, nobody knows what it is going to look 
like, so how would they know what it costs?
    Mr. Rogers. Right. And I am just amazed that we have spent 
over $3 billion already and we don't have a system that works. 
It is just phenomenal to me. But last, I want to go to Chief 
and ask about something that I am interested in, blimps.
    You know, we use blimps for weather purposes. We use them 
in the military for aerial surveillance because they loiter. 
They can stay up for a very extended period of time. Do you 
currently use blimps along the border for aerial surveillance? 
And if so, how many and what kind of platforms do you use them 
for?
    Chief Aguilar. We do not currently use blimps. We have 
tested them in the past out in the field in Arizona 
specifically. We don't have any now. We do fly some radar 
aerostats along the southwest border, but they are not 
surveillance blimps.
    One of the things that we are asking Mr. Borkowski, SBInet 
is specifically to capability. If he believes that a blimp is a 
proper platform, he will take a look at that. But our--and this 
is the good thing about the way that the relationship works 
between the border patrol, the SBInet program and whoever the 
contractor is going to be.
    We articulate requirements. This is what the Border Patrol 
needs from an operational perspective. They start doing the 
research and assessing what it is that can bring us that 
capability in the most efficient, effective and, of course, 
reasonable manner from a funding perspective.
    Mr. Rogers. Well, I know that you all like the drone, but 
it is so expensive and the blimps are being used by the 
military now, by weather services. I would like to see you all 
look at that. One of my concerns all along about the video 
cameras on poles is they can be shot out, and it is just a 
fact, by the bad guys, and you don't get the real high 
surveillance that allows you to look over into Mexico.
    So, but I will try to get a meeting with you, Mr. 
Borkowski, and talk about more about that later.
    Thank you, Madam Chairman.
    Ms. Sanchez. You are quite welcome, Mr. Rogers.
    I will now recognize Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Let me thank the chairwoman and ranking 
member for the hearing. The background of a number of my 
questions will be simply the conditions at the border that I 
think are well-known and have accelerated over the last year.
    The gun running, the explosive violence on the Mexican side 
of the border spilling over to the U.S. border and the interest 
of the American people about whether or not this violence can 
be contained and what elements we are using.
    Certainly, SBInet deals specifically with the issues of 
securing the border in ways that might capture the less endowed 
criminal because there are other ways to promulgate the 
violence that is going on. Mr. Stana, if you would give me what 
you think is the major Achilles heel of this program, the major 
indictment of this program, if you would do that?
    And Chief Aguilar, would you give me a status of the 
lawsuits and the negotiations dealing with the fence? This is 
part fence, part virtual that is at the Texas border? And I 
would also like to understand why there was an extension of the 
Boeing contract and what is expected to be accomplished out of 
that extension.
    Mr. Stana, first of all?
    Mr. Stana. Okay, thank you. With a broad stroke, I would 
say getting something that works to spec has been the most 
difficult part of this program and Project 28 was accepted. It 
didn't meet all the specifications, but it is within the right 
of the secretary to accept it and he did back in March 2008. It 
has been helpful but it has not worked to spec, and now we are 
seeing the same thing.
    I also would note that the spec for acceptance of Block 1 
is now a 70 percent identification rate, so that means when you 
are talking about drug runners or bad criminals, it can be 
accepted if they can find seven out of 10 of them. And I hope 
that would come----
    Ms. Jackson Lee. Three can really be explosive.
    Mr. Stana. I hope that that metric would come up because, 
you know figuring that three out of 10 are going to get by and 
you can still accept the program, as I understand that metric, 
seems to me a lower bar than maybe we want.
    Ms. Jackson Lee. What about the training of the Border 
Patrol agents, their understanding, comprehension, comfort 
level with it?
    Mr. Stana. You know, they have been trained to use Project 
28. They were trained on the mobile units and then there was 
delay getting the mobile units fielded and deployed. You know, 
I think the Border Patrol is doing what it can to train, but 
until this thing gets deployed, you really won't have the----
    Ms. Jackson Lee. But as Mr. Thompson asked the question 
about the agents who said they were uncomfortable or couldn't 
get their hands around it.
    Mr. Stana. As we understand the Border Patrol agents were 
thoroughly familiar with MMS' and Project 28 and the folks that 
our people talk with sort of dismissed that counterargument.
    Ms. Jackson Lee. Mr. Aguilar, Chief Aguilar, if you want to 
comment and then add on the lawsuits, please?
    Chief Aguilar. Yes, ma'am.
    Ms. Jackson Lee. And then you might be able to--someone 
jump in on the contract being extended.
    Chief Aguilar. Right. I will ask Mr. Borkowski to speak to 
the contract extension, ma'am, and I will also ask him to fill 
in some of the gaps with--relative to the land condemnation, 
the lawsuits that are ongoing currently.
    As we speak, we have built about 92 miles of fence just in 
Texas, and I mention Texas because that is where most of the 
lawsuits are happening at. We intend to build 115 miles in 
total. So we have about 23 miles that are caught up in some 
kind of litigation or concerns having to do with IBWC and 
things of this nature.
    We are working through those lawsuits, through those 
condemnations, and we fully expect to either build a fence by 
the end of this year or articulate a means by which to get the 
persistent impedance that we are looking to get in those areas 
where we cannot build a fence because of the ongoing lawsuit.
    Ms. Jackson Lee. I would like to pursue that with you, but 
if I could get the answer on the Boeing question and what 
results are we looking for at the end of this year?
    Mr. Borkowski. Well, the Boeing contractor--obviously 
Boeing is in the process of building these things and testing 
them, so we needed to extend the contract to allow them to do 
that. And in fact, part of what is awkward about this contract 
is it has these independent task orders, and those task orders 
have periods that are not the same as the master contract.
    So we extended the contract to allow Boeing to continue the 
work that was contracted on the task orders because it is a 
task order contract extension, just provides us the flexibility 
to continue having Boeing continue the work that was already 
contracted and, if appropriate, do follow-on work. So that is 
the reason we have extended the contract.
    Ms. Jackson Lee. On my last seconds, I just think that we 
need to have a steadfast monitoring of the progress here. This 
is an ongoing saga of 10 years plus and our borders are 
screaming for the right kind of security, and America is 
screaming for the right kind of security.
    I look forward to some in-office briefings, and I thank you 
all very much and I yield back.
    Ms. Sanchez. Thank you, Ms. Jackson Lee.
    And now I will recognize Ms. Miller, from Michigan for 5 
minutes.
    Ms. Miller. Thank you very much, Madam Chairman. I 
certainly want to thank you for calling this hearing, and I 
want to thank the witnesses as well for their testimony and to 
the Chief and the Director. Certainly appreciate your service 
to our country, all of you, and what you are doing, which is 
not an easy job.
    And I am very interested in SBInet, and I actually want to 
talk a little about what my experience in my region in our 
sector has been on the northern border. And as always seems to 
happen, we always talk about the southern border, and believe 
me, I am not minimizing. I am very cognizant of all the 
problems we have on the southern border.
    But the northern border of our nation is twice as large, as 
long, and has some similar challenges as well as some unique 
dynamics as well. And a principal advocacy of mine of course is 
the northern border.
    And it was mentioned a little bit about some of what is 
happening in the Detroit Sector and the Buffalo Sector with 
SBInet. But let me just say that our experience is happening 
very quickly and generally quite positively in regards to 
SBInet.
    And I want to personally thank, if it is not inappropriate, 
Chief Gallegos, who is the Detroit Sector chief, and I know you 
guys move around in your business, but I hope you don't--we 
don't want to lose him. We really like him and he is doing a 
great job.
    And I will tell you, as we have rolled out SBInet in the 
northern sector--actually, principally in my district, of 
course we always have--in Michigan you have the map of your 
state on the end of your hand here and we are having 11 
surveillance cameras put up on the monopoles along this sector, 
as well as we have a mobile unit at Selfridge Air National 
Guard Base which is in the immediate geographic area, and it 
houses all different facets of the military, but the CBP has a 
large presence there.
    And the SBInet is complementing, under the CBP umbrella the 
Great Lakes Northern Border Wing for CBP which has air assets 
and water assets, additional personnel is there for a number of 
reasons, some of the unique dynamics.
    Not only do we have sort of an asymmetrical theater going 
on there with the Great Lakes, the long liquid border that we 
share with Canada, we have the two busiest border crossings on 
the northern tier are there.
    The busiest rail entry in the northern, the entire country 
actually, is there. And all of this is happening, and so we 
have a lot of the same kinds of things that are happening on 
the southern border.
    We are anticipating that we have the ground mission for UAV 
next year, 2010, there as well, again under the DHS CBP. And 
the interesting thing for me that has, and I just want to speak 
to this as a positive experience, is the rollout of all of 
these surveillance cameras.
    You can imagine how we were all very concerned about how 
the public would say, my gosh, big brother. All of a sudden you 
are putting these huge surveillance cameras in one of the 
busiest boating sectors, for example, in the entire world 
really.
    People are out there saying, what do you--you know I am out 
there having a beer. Are you going to be looking--or women be--
whatever. There was a lot of public consternation about the 
rollout of this.
    And I will tell you, our Detroit Sector chief and CBP, how 
they rolled it out, they brought in all the affected 
stakeholders, our local law enforcement officers, the county, 
the sheriff, obviously the Coast Guard which is one of your 
critical partners, our Canadian counterpart, everybody, and 
most importantly, the public.
    And how the public has accepted this now as not an 
intrusion into their privacy but something that they are 
looking forward to, and I think the first thing with SBInet, 
the very first big bust that we have as a result of these 
cameras, will dissipate any public hesitation about it and 
how--what an important critical tool it is, an element for 
border security going forward.
    And I know I should ask a question, but I just want to make 
the committee aware of what is happening here and speak to 
this. And I was noticing that the chairman put up here--
actually as we look at this, one of the other things that is 
happening, Mr. Chairman and members of the committee, as well, 
in our area is something called an Operation Integration Center 
along the northern border.
    Because we have, although in our case we have all the water 
and everything shown on here, all of these various cameras and 
various types of things, all of this data, you know you have to 
collect the data, right? Collect all the data, analyze the 
data, and then get it back out into the hands of the Border 
Patrol agents, the brave men and women who are tasked with 
protecting our border.
    And CBP is putting an Operation Integration Center as well 
at the Great Lakes Northern Border Wing which will be a pilot 
program for the northern border of analyzing all of this data 
and utilizing it in an efficient manner.
    And I think that is one of the things that we learned from 
9/11. That was one of their big recommendations. The ability--
you have to move from the need to know to the need to share 
information amongst all of the agencies.
    And I know my time is running out here, but I just wanted 
to mention that----
    Ms. Sanchez. Your time has actually run out.
    Ms. Miller. My time has run out. I would invite the 
committee to come and take a look firsthand of what is 
happening on the northern border. And again, our experience is 
very positive. We are much looking forward to this in our area. 
Thank you.
    Ms. Sanchez. Ms. Miller, I would just like to acknowledge 
your continued efforts to talk about the northern border. I 
know from a political standpoint and what America worries 
about, they are always talking about the southern border, but 
the reality is we have three real borders.
    We have the southern border. We have the northern border, 
which is quite open as we still all know, and the resources and 
all don't seem to get there, and we also have the maritime 
border. And in particular we were very worried about the 
Caribbean situation, drugs coming in and people smuggling, et 
cetera, which also doesn't get as big a play.
    And we are hoping on this committee at some point this year 
or early next year to address both the Caribbean region and as 
well as the northern border, and I was just talking to our 
ranking member and we will try at some point, I hope, to make a 
trip up to the northern border.
    We did a few years ago when we went to Niagara, the 
Niagara--Buffalo area, but it definitely is overdue and as we 
know, the stronger we become on one side and some of the links 
we make them stronger then people go to the place where we are 
not paying as much attention or it is weak or--so we definitely 
have it on our list, and I thank you for that.
    Ms. Miller. Thank you very much, Ms. Chairwoman.
    Ms. Sanchez. Our next person will be Mr. Pascrell, of New 
Jersey for 5 minutes.
    Mr. Pascrell. Thank you, Madam Chair. Madam Chair, the fact 
is that our inability to find a border security solution that 
actually works makes it impossible for the Congress to enact 
real comprehensive immigration reform. That is the bottom line.
    And with all due respect, and I thank them for their 
service, Chief Aguilar, Mr. Borkowski and Mr. Stana and to many 
respects our friend from Boeing here, not the technology that 
is the problem. See, I don't think the technology is the 
problem. It is our inability to articulate a coherent policy 
for practicing and protecting our borders. That is the problem.
    I don't think they are the problem. We are the problem, and 
the administration is the problem before and now. So you can 
put more personnel--I mean we just discovered we had a northern 
border in the last 2 years. I thought that had disappeared, 
dematerialized. But you can have more personnel, more walls and 
fences and more electronics and we are good at that stuff, you 
know, like to work with that.
    But we are not good at accomplishing what we set out to do 
and that is to have an overall plan and have a clear budget. 
This budget is certainly not clear to me. Maybe it is clear to 
all of you.
    So Chief Aguilar and Mr. Borkowski, I have a simple 
question on the actual results we have seen from the Secure 
Border Initiative. Since fiscal year 2005, SBI's funding has 
amounted to over $3.7 billion. This year the Department of 
Homeland Security has requested $779 million in SBI funding for 
the fiscal year 2010.
    My question is what are the actual results on the border 
before and after we had put all this funding into technology on 
the border? And my second question, and I will have a third 
one, but my second question, just to be clear, how many more 
illegal crossings have we stopped in the years since we started 
SBI as compared to the years before? How many more drug 
seizures have we made?
    How many weapons have we stopped from going across the 
border because remember, Madam Chair, we weren't even concerned 
about all the weapons that were going from the United States 
down into Mexico which are now killing our guys and gals--our 
guys and gals. We certainly don't want to stop industry do we? 
So we want those weapons to continue to go over from all kinds 
of sources. Let us start with those two questions.
    Chief Aguilar. Let me begin with the statistics that you 
asked for, Congressman. The peak year for activity levels was 
fiscal year 2000, the year of 9/11, 1.6 million apprehensions 
of illegal entries between the ports of entry. In addition to 
that, close to a million pounds of narcotics. As we speak we 
are going to end up this year with about 5-1/2 or 550,000 
apprehensions, a decline of over 62 percent.
    One of the reasons we have been able to do that--oh, and by 
the way, the narcotics apprehensions is about 2.5 million 
pounds, a tremendous increase. One of the reasons for that 
ability to increase the narcotics apprehensions, we could 
because our ability to focus on other threats such as 
narcotics.
    When we mitigate the illegal alien incursions we are able 
to focus our efforts on other threats. One of the reasons we 
have been able to do that is because of some of these 
expenditures of funds, some of these expenditures of funds.
    Within these $3.7 billion that you spoke about, we got 
capabilities to us such as the MSS that was spoken to earlier, 
mobile surveillance system, which gives us a standalone 
capability. It is a system standalone capability. It is not 
networked, but it gives us a tremendous amount of enhancement 
to our agents.
    Mr. Pascrell. What about the interdictions of weapons going 
from the United States to Mexico?
    Chief Aguilar. We have actually increased our efforts as a 
department, CBP. Border Patrol is assisting----
    Mr. Pascrell. How many weapons have you confiscated?
    Chief Aguilar. I don't have that number for you right now, 
sir, but I can get it for you.
    Mr. Pascrell. Do you have any idea?
    Chief Aguilar. I wouldn't guess at this point, sir. I would 
rather not. I will get you the number.
    Mr. Pascrell. Is that a priority?
    Chief Aguilar. It is a DHS and a CBP priority in which 
Border Patrol specifically assists, and this Congress has 
actually given the Border Patrol 44 specific positions for next 
year in order for us to continue assisting. But the main focus 
on southbound weapons is by our OFO counterparts at the ports 
of entry checking traffic southbound. But I----
    Mr. Pascrell. Could you get back to me and let the 
committee know how many weapons have been confiscated----
    Chief Aguilar. Absolutely.
    Mr. Pascrell. ----that are going from the United States 
into Mexico?
    Chief Aguilar. Yes, sir. I would also take the opportunity, 
Congressman, to address something that I think is important 
because of the level of support that Congress has given to CBP, 
Border Patrol and DHS, but specifically CBP. Madam Chair, 
unfortunately I think we may have provided you with some wrong 
stats.
    The number of Border Patrol agents, and I am very pleased 
to put this forth, as of the 29th of August, was actually 
20,000 agents, 20,000 Border Patrol agents. We have grown 
tremendously.
    That along with the capability being given to us right now 
by Project 28, its evolution, its morphing, its development, 
its continued enhancements, is helping us tremendously. We 
still have a lot further to go and we are working very hard 
because of the recognition that we do need to secure this 
border as America has demanded.
    Mr. Pascrell. Having a second round?
    Ms. Sanchez. We will see. Thank you to the gentleman from 
New Jersey.
    When I began this hearing I spoke about metrics and trying 
to understand whether putting up a physical fence or putting up 
a virtual fence is really going to allow us to, if you will, 
take scarce resources and deploy them and use them better so 
that, in fact, we can bring down the apprehension, bring down 
the number of people coming across illegally, get the number of 
drugs that we need to.
    And Mr. Pascrell, I completely share your view that until 
we fix the immigration issue we will continue to have excess 
people, people trying to get into this country. That really 
clutters up what we are really trying to do which is to get 
really bad guys, get the drug dealers, get people who would 
harm this country.
    So unfortunately this is just one piece of that. This is 
the, you know, the piece of security, and I think it is fair to 
say that the people in the United States don't believe that we 
have been doing a good job of securing our borders. And that is 
why this SBInet, that is why the resources that we are giving 
to Chief Aguilar and others, that is why the physical fence in 
places where it does work is so important for this cause.
    We need to have a level of confidence in the American 
public that in fact we can keep people out and we can also 
catch the bad guys. So I appreciate you bringing up the issue 
of how important the reform of immigration is.
    I would like to at this point recognize a member who we 
gave unanimous consent to sit on this committee today, who sits 
on the full committee, actually is the chair of our oversight 
committee, and he and I have chaired many hearings together, in 
particular looking at the issues of border security, and that 
would be Mr. Carney for 5 minutes.
    Thanks for waiting around to get a chance to ask your 
questions.
    Mr. Carney. Well, thank you for the gracious invitation to 
attend, Madam Chair, and I have several questions, probably 
more than 5 minutes worth, but we will not do--this is not the 
last time we will gather, I am sure, on the subject.
    Chief Aguilar, you mentioned earlier in your comments that 
you have sort of a three-legged stool, that--and it is all 
interdependent. You know, I think one of the legs, the 
technology leg, is a fairly wobbly leg. How are you 
compensating for that?
    Chief Aguilar. We are compensating for that wobbly leg by 
continuing to develop our capabilities within the technology 
realm. Going from standalone technology, for example, to a 
integrated system or a network of systems for technology is 
where we need to get to.
    In addition to that----
    Mr. Carney. But I know what we need to get to but what are 
you doing now?
    Chief Aguilar. Well, as I said, that is part of the actual 
development that we are going through that Mr. Borkowski is 
doing on our behalf. Our responsibility as agents is to 
identify and articulate the requirements that we have.
    His responsibility is then to search out a means by which 
to fill that gap, that void that we have articulated as a need. 
We have technology. We have standalone technology. We are 
putting pieces together in a rudimentary fashion, but what we 
are working towards is that integrated network system that we 
are--that is what we are requiring. So it is a work in progress 
basically.
    Mr. Carney. Putting pieces together in a rudimentary 
fashion. Okay. Okay.
    Mr. Borkowski, I have got to compliment you on a comment 
you made sort of offhand, but it wasn't lost on me, that P28 
was not sold as advertised. I don't know anybody on this 
committee who thought it was a prototype when they agreed to 
it, but now it is being sold as a prototype, as to somehow, you 
know, it is just somehow a bit of a slight of hand. And it just 
rankles me to hear that as a prototype.
    In any event, you said something that was interesting, that 
you purchased several printers over the course of your time and 
sometimes, you know, they work half of the time they work as 
advertised, half the time they don't. You continued to buy 
those printer products that don't work as advertised?
    Mr. Borkowski. You know it is interesting because we had 
this discussion at the department, and when I had this with 
senior leaders at the department they said, ``Well, you know, 
that is why you buy a Mac.''
    But the issue that you have and the question that we always 
have is if you go to, you know, as an individual when I go to 
buy, a Mac costs about three times a P.C., and so I am going to 
make a conscious decision about do I want to buy--pay the one-
third and pay the pain of always cramming in the printer, or am 
I going to pay three times and have the high confidence in the 
thing, and that is exactly the situation we are in.
    And typically in the government we go with the one-third 
cost. And I am not saying that was necessarily a bad decision. 
You know, I am not--you could make that argument either way, 
but that is essentially what happened to us.
    Mr. Carney. Mr. Peters, I think you are probably in maybe a 
better position than your two predecessors, but we asked the 
question a year-and-a-half ago, maybe 2 years ago now, of one 
of your predecessors of what happened?
    And they said, ``Well, we didn't have the A team in the 
contract.'' I mean, that was their answer. ``We didn't have the 
A team on there.'' I am not sure how far down the alphabet they 
were, but I want to believe that you are the A team and that 
you are going to do this well.
    We want to be able to believe you, but you have to 
understand, in the context of what has happened in the past, it 
is tough for this committee and certainly my subcommittee to 
believe your words until we see results. And results are going 
to be absolutely essential and, you know, the trials coming up 
here in the next couple of months we are going to be paying 
very close attention.
    In fact, it wouldn't surprise me if we get a request from 
this committee and my subcommittee to observe them, to be on 
the ground, you know, when they are going on because we are 
paying that close attention.
    Mr. Stana, the last question is for you and it is a yes or 
no answer actually. I know it is hard in government, but has 
the American taxpayer so far gotten what they paid for?
    Mr. Stana. No.
    Mr. Carney. Thank you. No further questions.
    Ms. Sanchez. And I thank the gentleman from Pennsylvania. 
Pennsylvania? Pennsylvania. Okay, I want to go back to the 
original, one of the original things I said, metrics. So one of 
the discussions, Chief Aguilar, you and I have had over time is 
we have now given you 20,000 positions.
    You have done a great job in finding people, trying to 
train them, bringing them along and building a culture that is 
really about getting the bad guys but, you know, most of the 
people who cross the border really have a reason to be crossing 
and making sure that people feel confident about that.
    My question to you is because we had this discussion, if we 
get SBInet working and if we put up the physical fence in 
places as we have, is that going to create more work in a sense 
for your workforce where you will need more people?
    Or is that going to make it a necessity not to have the 
20,000 agents that you currently have because the last time we 
discussed this I believe you said something to the effect, ``I 
don't really know if my workforce will decline or whether we 
will just be catching so many more people that I am actually 
going to need more people to get them, more people to detain 
them, more people to put them through the process.''
    So what is the magic--do you think now and what is the 
metric? How are we going to judge whether we are just making so 
much busywork in a sense for us and really not using the scarce 
resources of the American people to still go after the bad 
guys?
    The terrorists, the person who means to, you know, bring in 
chemical weapons, which is really, I think, when we look at 
homeland security, our biggest desire is to really get the bad 
guys before something happens on our soil.
    Chief Aguilar. Yes, ma'am, and we have spoken about this 
before and thank you for asking the question because I think it 
is important that at every opportunity we speak to this. First 
of all, I think it is important that we recognize that the 
efforts that are ongoing are to secure our borders. Each one of 
our borders--you articulated three of them and I agree there 
are three versions of our borders--requires a different 
enforcement model.
    The purpose of the application of the enforcement model is 
to basically, on the southern border for example, is to 
mitigate the high level of cross border illegal traffic that is 
occurring because of the potential for exploitation of that 
high traffic by not only narcotics traffickers, illegal aliens, 
but especially the terrorists that are still looking to come 
into this country.
    So applying the right enforcement model comprised of the 
right type of technology, the right level of technology, the 
right numbers of personnel, and the tactical infrastructure is 
critical. The metrics that correlate to that is how do we 
measure that mitigation of cross border activity?
    There are several ways that we use. Third party indicators, 
what happens to activity that is associated with a high level 
of cross border activity? We see in San Diego, for example, we 
use to see a lot of stolen vehicles, people getting run over on 
the major highways.
    We used to see a lot of rapes, murders on the immediate 
border. We used to see stash houses. We used to see staging on 
the Mexican side, social costs because of hospitals and things 
of this nature having to basically cater to this illegal 
traffic that was occurring.
    We measure all of those to gauge what is happening overall 
from a global perspective as it relates to a specific area of 
the border. So we take all of those things into account. Some 
of the things we take into account--assaults against our 
officers.
    We know for a fact that when we are going into an area of 
operation to gain control, assaults against our officers are 
going to escalate. They are going to go up. We fully expect 
that. We train, organize and equip our officers in order to be 
responsive to that.
    So we take a look at all these metrics looking for the 
outcome of securing our border. On our northern border, I won't 
go into a lot of detail, but on the northern border we have an 
absolute need to increase our situational awareness of just 
what is happening, as Ms. Miller said.
    That we at this point, frankly, there are some points on 
the northern border where we just don't know what we don't know 
because we are not out there to the degree that we need to be.
    So what are the metrics? It is intelligence. It is working 
with CBSA. It is working with RCMP, working with our IBIS 
units, our ICE partners, FBI, DEA, interlocking all the 
intelligence that we have, getting greater fidelity on that 
northern border. So those are the metrics that we are looking 
at.
    Now, as we move forward one of the complexities that we are 
faced with is that we are dealing with the obvious--human 
criminal aspect. For everything, for every action that we take 
they are going to react.
    Whether it is because they are wanting to come into this 
country to make a better life or to destroy our way of life, or 
whether they are looking to come into this country to bring in 
their narcotics loads. There are certain draws into this 
country. So that human aspect we have to take into account. We 
actually play for that displacement.
    It is going to move until we are at a point where we have 
secured our entire southwest border. As we speak, in California 
on the Pacific side yet--2 days ago we had two loads of aliens 
that went out 20 miles into the Pacific and then went north 39 
miles and then landed. The reason for that is they can't get 
past us along the land borders in San Diego. That is actually a 
measure of success.
    Coast Guard is involved with us right now so that we take 
that avenue away from them also. So those are the things that 
we are tracking. Those are the metrics and that is the way that 
we pre-plan where it is that we are going.
    Ms. Sanchez. Thank you, Chief.
    Mr. Souder, do you have a couple more questions for, sir?
    Mr. Souder. Yes. I wanted to make a couple of comments and 
a fundamental question. Mr. Pascrell and others have talked 
some about the north border. As somebody who worked narcotics 
issues for many issues, as well as that evolved into terrorism 
and did a border report after a series of hearings prior to 9/
11, and have worked with Chief Aguilar for many years, let me 
say that I have visited every state on the north border, have 
held joint hearings with the Canadians on the north border when 
I was chair over in the Government Reform and Oversight and 
before the creation of this committee.
    And the problems that we have are common. It is people and 
contraband. The contraband can be narcotics. The contraband can 
be chemical weapons. It can be nuclear and it is a constant 
challenge. The people can be coming for work. They can be 
coming for terrorism. They can be coming for a variety of 
reasons, and the problem is that if any can get through, which 
is almost impossible to stop, then any could be the one 
carrying the nuclear weapon.
    And the challenge is how you get zero tolerance when you 
have these huge borders and that obviously requires intel, 
which is critical, and then it requires every strategy. Part of 
the job of Mr. Stana and your whole agency is to be a pain in 
the neck and to try to hold the agencies accountable. That you 
obviously don't have all the information, but it provides an 
independent check and we need to hear that constantly.
    I don't know whether or not this program ultimately will be 
justified in cost. Quite frankly I was one of the early 
skeptics because I felt this was an excuse to avoid building a 
real fence and dealing with it and it was too massive of 
approach rather than a building block approach, and if you did 
28 miles, when you have as long a border as we are and put this 
much money in 28 miles it wasn't going to be workable.
    I don't agree with the statement that some of us didn't 
raise that question in the very beginning. We had questions as 
to what the deal was with this. The prototype was an ideal 
structure that in the military world would have been incredibly 
expensive. In this world we didn't have the dollars to do it.
    You can see certain advantages with the UAVs going up. You 
can see where the gun is. Our agents that have been killed in 
California, had they had technology to tell them that there 
were three guys there with a gun he wouldn't have been 
assassinated.
    If you can see at Organ Pipe where a park ranger was 
killed, if we would have had information that would have been 
able to get down to them there they would have been able to see 
where his gun was. They would have been able to see where the 
drugs were.
    That is incredibly expensive, and the question is what can 
we do that is reasonable, that is workable on both borders to 
add technology to the people and to the other methods that we 
use?
    And because they are always going to change. Chief Aguilar 
definitely made a terrific point in that is what we deal in 
narcotics all the time. The degree you push them out more you 
increase their expense. You have reduced the numbers. You have 
more chances that they will trip up, more chances that you will 
see them, and the whole reality here is, is that we are never 
going to reach 100 percent.
    But the degree we make it harder, the more likely are that 
you are going to catch them and we are much more aware than we 
were on 9/11.
    Now, my fundamental question is that there were some signs 
that you are going to look at SBInet in January and see whether 
it would proceed. And at some point if we are going to do the 
whole border, particularly if we are doing the north, too. 
Congress still hasn't seen a--what the range of the cost of 
this project is.
    The only way we can do that is to take, okay, here is what 
we did for 28 miles. Now we are doing that with TUCSON-1. Are 
we going to extrapolate that? What percent of that do you 
extrapolate?
    Then you wind up with these huge figures that scare 
Congress off. Ultimately we need some sort of ``effective 
control'' of the border. Do you see yourself evolving towards 
another strategy? A faster strategy, a more of a building block 
strategy, what do you see Mr. Borkowski?
    Mr. Borkowski. We see ourselves as going to a building 
block strategy. So what we have at this point is we have a plan 
that if it is appropriate that talks about covering the whole 
border. And we need to be prepared to execute that plan. But 
like you, we don't have all the data we need to convince 
ourselves that that is the right plan.
    It may make more sense to be a little more selective about 
where we put this. So for example, one of these areas of 
responsibilities covers about 20 to 40 miles of border. That is 
roughly the range. And it costs us, loosely speaking, about $50 
million to cover that, you know, to put it in. Now, there is 
the operation cost.
    So you can start to see that as we figure out what the 
effectiveness of this is, compared to other lower costs or 
other types of technology, which is the reason I am having 
these 3 to 6 hours of meetings every week, to collect those 
other technologies. We will gain some experience here and then 
the department is going to be in a position to say, okay, we 
are prepared.
    We are prepared to cover the whole border, but before we do 
that let us take some of this experience and say is that really 
the most cost effective way to mix infrastructure, technology 
and personnel in all parts of the border?
    So our strategy has been be prepared to do it. Get to the 
point where you are prepared to do it as quickly as told, but 
also make sure as you do it you have incremental steps where 
you can check. And we can have this discussion about how much 
is the right amount in each part of the borders so then we 
are----
    Mr. Souder. And then it is important for anybody who is 
watching this hearing or reviews the record of this hearing, to 
understand that while we are focused on this sector of Arizona 
which continues to have, plus Douglas, the most intense 
pressure, although we don't know what we don't know.
    The fact is that your agency isn't just focusing on this 
area because we talked just beforehand about what is being done 
at Big Bend and Amistad in Texas. Congresswoman Candice Miller 
just talked about selfridge. You are working the whole border. 
It is just this is the most intense area because it is the most 
tense area of conflict and numbers. I yield back.
    Ms. Sanchez. And I might remind my ranking member that the 
border is much more than just the land border also. There is a 
reason why we are called the Border, Maritime and Global 
Counterterrorism Subcommittee. Engages quite a bit.
    Mr. Pascrell, do you have a question or two?
    Mr. Pascrell. Thank you.
    I want to ask Mr. Stana about standards. I know that 
Homeland Security keeps on changing the goal. It makes it more 
difficult for them to do, and the other folks, to do what they 
have to do.
    It is my understanding that at various times when it has 
become apparent that the SBInet would not be able to meet 
established performance criteria, that the department has 
simply lowered its standards rather than fixing the problems 
with the system.
    At one point there were nine such criteria, and we talked 
about this a few years ago. Now there are three. At one point 
the system was supposed to identify and classify 85 percent of 
the entries. Now it is only 70 percent. So Mr. Stana, what can 
you tell us about the performance criteria for both Project 28 
and TUCSON-1? How do they compare and are we grading on a 
curve?
    Mr. Stana. With respect to Project 28 the criteria there 
was 95 percent plus or minus 5 percent, so that was much 
higher. For Block 1 I believe the objective is 85 percent, but 
the threshold for acceptability is 70 percent. I would hope 
that over time that bar would go up a little bit. That seems a 
little bit low.
    I think, you know, 2010 is going to be a crucial year with 
these operational tests, and if the technology turns out to 
work and, you know, with a few tweaks or right out of the gate 
that is great. We all hope it works.
    If it doesn't then perhaps the department needs to think 
about a plan B because this is the second prototype in essence 
after Project 28 and if it this doesn't work with appropriate 
metrics, then what?
    Mr. Pascrell. Well, let me ask you this question. I mean 
you anticipate it. You have looked at this and you have 
overseen the situation for quite some time now. You have 
witnessed the changes I have talked about, the goals changing. 
What is the main problem here? Since we are not satisfied 
here--it is quite obvious--both sides of the aisle as to what 
is happening down there?
    And then it is not any way a reflection on the hard work 
that the chief does and the other folks have done. But we are 
not getting it done. And while that is not getting done we are 
not responding to the major problem of immigration.
    In fact, the economy of America has more to do with the 
immigration than any of our brilliant ideas here about how we 
are going to make sure we know who comes into this country from 
wherever they are coming, north, south or, you know, from 
planets. It doesn't matter. What is your analysis?
    Mr. Stana. Well, I would put it this way. This is a very 
difficult thing to do. We can talk about hooking up printers 
and I think that--and I understand that he is trying to use a 
metaphor here, but it almost simplifies the task at hand, and 
maybe we are still having an expectation gap here. Is the 
technology really ready to do what we have contracted for it to 
do? That is one thing.
    The second this is is that I think in setting contracts 
that talk about the whole northern and southern border in 3 
years and, you know, now we are--it seems like every time we 
have one of these hearings everything is going to be fixed and 
we are disappointed.
    Maybe it is just--is time to really think about whether 
this is the way to go? Are cameras really of sufficient rigor 
and technology to get the 10-mile range that maybe the Border 
Patrol might like? Are the radars really able to deal with the 
winds that you have to expect down in Arizona? Or is there 
another plan?
    I know the Border Patrol likes MSS' as sort of a stopgap 
for small areas and they have their problems, too. But in 
thinking about this, and it is a good question, maybe the grand 
plan is something that isn't achievable right now given the 
current state of technology, and maybe, depending on what 
happens in 2010, it might be time to think about other options.
    Mr. Pascrell. I want to thank you for your honesty, and I 
ask this question to you because I respect your acumen in this 
area. Perhaps maybe we ought to get the immigration policy 
first before we deal with the border situation because 
wouldn't--if we had a robust immigration policy that we can 
come together, both sides, that would certainly affect the 
traffic on any of our borders.
    And it might simply save us a lot of money, and doing what 
we are doing is not succeeding, not to the extent that we want 
it to. I am very concerned of putting our men and women in 
jeopardy if we are not clear about the policy in the first 
place, and I would suggest that we are not. I will stand 
corrected if I am wrong.
    And I have seen too many valleys in this thing and not 
enough peaks, and I am concerned. We have been here together, 
whether we were before when we were a select-committee before 
we were even a committee, you know, I have been here trying to 
do it to the best of my ability, to be in--to be something 
hopefully positive.
    Ms. Sanchez. Thank you, Mr. Pascrell.
    Mr. Pascrell. I think we are headed in the wrong direction. 
That is my opinion. I don't know. I am not going to ask you 
whether you agree or disagree, but----
    Mr. Stana. Well, I am not a policymaker, Mr. Pascrell. I 
just try to provide information and analysis.
    Mr. Pascrell. Thank you.
    Ms. Sanchez. The gentleman's time has expired anyway so we 
will lose that.
    Mr. Souder. I want to say----
    Ms. Sanchez. Go ahead, Mr. Souder, just a comment.
    Mr. Souder. I would like to say something that the other 
members can't really say. The republican administration 
overpromised the ability of technology to do this, and we would 
appreciate that the new administration doesn't overstate it. 
Come in with realistic goals, realistic budgets and that we 
will try and address it from there.
    Ms. Sanchez. And I think overall what you are hearing from 
this committee is that we are very concerned about securing the 
border, and I think we have worked in a very bipartisan manner 
to attempt to do that and keep the politics out of this, 
although as Mr. Souder and I were just discussing, there are 
always politics involved whether it is immigration policy or 
the border, et cetera.
    I have one more question for you because as the chairwoman 
of this subcommittee in particular, again, one that is titled 
Border, Maritime and Global Counterterrorism, as you probably 
hear--and I hear this over and over and we talk to our 
membership.
    Some of us have made some trips to some of the areas. There 
are more areas to be secured. We were talking about the 
Colombia drug issue.
    Chief Aguilar, you spoke about how people are avoiding the 
land now and they are going around and coming through the 
ocean. We have a real open area as far as the Caribbean arena, 
and so there has been a lot of bantering around, especially at 
some of my members about the fact that they go and they travel 
and they take a look at these things.
    I want to ask both Mr. Stana and Chief Aguilar, do you 
think it has been worthwhile for the members to come out and 
actually take a look at, for example, SBInet, to go over and 
talk to the Mexican officials about border violence that is 
happening?
    Do you think we should be going to the northern border? Do 
you--just what is happening and talking to the Coast Guard and 
what is going on, for example, in the Pacific or the Caribbean?
    Do you think that is worthwhile or do you think we should 
just take Mr. Stana's and your word for what is happening out 
there?
    Chief Aguilar. You should not take our word for it. I would 
absolutely recommend that you continue going out to the field. 
And it is a very complex matter that we are handling. It is in 
requirement of a comprehensive approach and the enforcement 
model that I spoke to earlier is very specific to each one of 
those borders and even within those borders within specific 
areas it needs to be literally designed for the area we are 
focusing on.
    I would absolutely love to have you and the rest of the 
committee members out there. I think it is critical that you 
get a look at it firsthand. Absolutely yes.
    Ms. Sanchez. Mr. Stana, how do you feel about that?
    Mr. Stana. Yes. Well, I would like you to take my word for 
things, but I think it is absolutely essential. I get down 
there three or four times a year and the Border Patrol and Air 
and Marine are good enough to take us around and, you know, up 
in the helicopter. There is no substitute for seeing it 
firsthand, seeing what works, what doesn't work, what the 
challenges are.
    It sounds awfully simplistic sometimes to say well, you put 
this camera and this radar together and a COP and everything is 
going to get--it is difficult. The terrain is difficult. The 
challenges are there, and I think getting down there is one way 
to gather a firsthand appreciation for the difficulty of this 
task.
    Ms. Sanchez. I appreciate your comments, and I just want to 
remind all of you and in particular Mr. Peters, you didn't have 
too many questions--representing Boeing there. I just wanted to 
let you know this is not about a witch hunt.
    This is about trying to figure out how we make a system 
work because the American people have not only tasked with 
spending the money to do so, but we have such broad issues out 
there that affect so many people on a day-to-day basis.
    That if we can't get this under control, if we can't work 
together and we can't figure it out, you know, it is very 
difficult to work on some of these and have the confidence to 
work on some of these other issues that are out there.
    So I want to thank all of you for being before us today, 
for your valuable testimony. I want to thank the members for 
having attended so well, and members of the subcommittee may 
have some additional questions for you. We will put them in 
writing. We hope you will get them back to us as quickly as 
possible.
    And hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairwoman Loretta Sanchez for David Aguilar and Mark 
                               Borkowski

    Question 1a. The Committee understands that recently constructed 
border fencing is already in need of repair in many places along the 
border. The Government and Accountability Office (GAO) noted that each 
breach in the fence costs on average $1,300 to repair. Moreover, GAO 
reports that the overall 20-year life-cycle cost for the fence is 
estimated to be $6.5 billion.
    What is the total cost of repairs for border fencing already 
constructed?
    Answer. Since March of 2008, CBP has expensed $7,509,688 for 
contracts on fence maintenance for the El Centro, Yuma, Tucson, Laredo 
and El Paso Sectors.
    Question 1b. What is the current status of procuring maintenance 
services for the border fence?
    Answer. Short term maintenance contracts are currently in place for 
the Yuma, Tucson, Laredo, and El Paso Sectors. Additional short term 
maintenance contracts for the San Diego, El Centro, Marfa, Del Rio and 
Rio Grande Valley Sectors are scheduled to be awarded during first 
quarter of fiscal year 2010. These contracts will be in place until the 
long term ``Comprehensive TI Maintenance and Repair'' (CTIMR) contracts 
are awarded.
    Question 1c. Please describe CBP's long-term strategy for fence 
maintenance.
    Answer. The long term strategy for fence maintenance is to be 
provided through the ``Comprehensive TI Maintenance and Repair'' 
(CTIMR) contracts covering all nine Sectors. The strategy is for CBP to 
set aside two of the four contracts to small businesses and the 
remaining two to full and open competition. The first CTIMR Request for 
Proposal is currently under development, with contract awards scheduled 
for fiscal year 2010.
    Question 2. Last year, CBP reprogrammed approximately $400 million 
from unobligated SBInet funds, along with funding from other Department 
accounts, in an effort to complete construction of border fencing by 
the end of 2008. How did the reprogramming of funds affect the schedule 
and deployment of SBInet?
    Answer. The funding that was redirected from SBInet to the Tactical 
Infrastructure program last year effectively eliminated the potential 
to complete SBInet deployments in Arizona by the end of 2011. However, 
even with the full funding, meeting this SBInet deployment schedule 
would have been high risk due to technical and management challenges. 
When CBP re-planned the SBInet deployments within available funding, we 
were able to step back, make trade-offs between risk and schedule, and 
provide enhanced testing and engineering rigor before we resumed 
deployment.
    Question 3. According to a recent GAO Report (GAO-09-896), CBP has 
not systematically evaluated the impact of tactical infrastructure on 
the border. This finding is very troubling considering the $2.4 billion 
investment that American taxpayers have made in this infrastructure.
    Considering all the funding that Congress has provided for fencing 
and the $400 million in reprogramming that CBP directed last year for 
fencing, why hasn't CBP completed this type of study?
    While apprehensions have generally decreased along the southwest 
border, how do you account for the rise in apprehensions in the San 
Diego sector, where fencing has been present for some time?
    Answer. The Government Accountability Office (GAO) report entitled 
Secure Border Initiative: Technology Deployment Delays Persist and the 
Impact of Border Fencing Has Not Been Assessed (GAO-09-896) recommended 
that Customs and Border Protection (CBP) conduct a cost-effective 
evaluation of the impact of the tactical infrastructure's contribution 
to border security. CBP concurred that this study would be beneficial 
and has since committed to completing this study by the end of calendar 
year 2011.
    The Office of Border Patrol (OBP) recently met with a 
representative from the DHS Center of Excellence for Border Security 
and Immigration (co-located at the University of Arizona at Tucson and 
the University of Texas at El Paso) and discussed CBP's need to analyze 
the impacts of tactical infrastructure on border security. The Center 
of Excellence, established through the DHS Science & Technology 
Directorate, has an open task order with the Department of Homeland 
Security. OBP is currently developing its Fiscal-Year (FY) 2010 spend 
plan for allocation of the necessary funding to facilitate the study 
and ensure its completion by the end of calendar year 2011.
    Border security cannot be achieved through fencing alone; rather, 
it requires the appropriate combination of tactical infrastructure, 
personnel, and technology. Nevertheless, immediate and continuous 
access to the border is a critical component to achieving control of 
the border. Tactical infrastructure provides access to the border, as 
well as additional time to respond to an illegal entry by deterring or 
slowing the criminal element's ability to easily cross the border and 
escape.
    The Secure Border Initiative has deployed an additional 24.6 miles 
of fencing in the San Diego Sector (SDC) since fiscal year 2007. Most 
of these projects were completed at the end of calendar year 2008.
Apprehension Data:
    <bullet> fiscal year 2006 Apprehensions 142,108
    <bullet> fiscal year 2007 Apprehensions 152,460
    <bullet> fiscal year 2008 Apprehensions 162,347
    <bullet> fiscal year 2009 Apprehensions 118,705
    <bullet> Apprehensions for SDC were down 27 percent when compared 
to fiscal year 2009--fiscal year 2008 respectively

Border Security:
        <bullet> Effective Operational Control
                <bullet> SDC currently has 50 percent of the Area of 
                Responsibility under Operational Control (30 Miles), 10 
                of which have been achieved in the past three years
        <bullet> Secure and Safe Border
                <bullet> Reduced volume of activity
                <bullet> Reduction in drive throughs
                <bullet> Displacement of activity to the coastline
        <bullet> Quality of life has increased as evident by the 
        vitality of the San Ysidro and Otay Mesa communities / 
        businesses
    Questions From Chairwoman Loretta Sanchez for Timothy E. Peters
    Question 1. In your testimony you referred to Project 28 as a 
``prototype.'' This Committee went to great lengths trying to determine 
exactly what the Border Patrol was receiving with Project 28: a 
``prototype,``a ``test bed,'' or an ``operational tool.'' Every term 
means something different and raises certain expectations. Can you 
state for the record what the Border Patrol will be receiving in Tucson 
1?
    Answer. Project 28 (P28) was a prototype, requested by the 
department in the Request for Proposal to create a segment of the 
offeror's concept of operations to ``demonstrate the feasibility of the 
proposed overall solution'' (Section M, Factor 7, p. 100 of the SBInet 
RFP).
    Tucson 1 (TUS1) is the first deployment of an operational segment 
using the Block 1 SBInet configuration. It will cover approximately 23 
miles of border and consist of nine sensor towers, eight communications 
towers (four new and four upgraded existing towers), a new common 
operating picture (COP) software package, a command and control 
facility, and associated warranties.
    Question 2. According to the Government Accountability Office, 
Project 28 technology currently in place is of limited use to Border 
Patrol agents because they are forced to work around shortcomings with 
the wireless network, camera controls, and radar. What would you tell 
agents in the field who are waiting for Tucson-1 to be deployed with 
the expectation that it will offer them more operational utility than 
its predecessor?
    Answer. As Chief of the Border Patrol David Aguilar testified to 
Congress on September 17, 2009, P28 is operational and provides 
effective support to our operations.
    As part of the Project 28 prototype, Boeing provided 50 Mobile 
Display Terminals (MDTs) in vehicles to demonstrate the feasibility of 
providing Common Operational Picture (COP) like capability to vehicles 
in the field. This capability, which utilizes wireless network 
technology, requires the vehicle to be within range of a P28 tower with 
unrestricted line of sight. The rough terrain in the P28 area created 
problems for this type of communication design and it did not provide 
reliable connectivity for the agents. As a result, the MDT was not 
included in the Block 1 design. In order to understand the feasibility 
of the use of MDTs, a CBP chaired communications working group was 
created to study the future communications architecture options. Boeing 
has subsequently developed MDT software which leverages commercial 
infrastructure and is ready to proceed once the communications working 
group determines which wireless network architecture it wants to adopt. 
This capability will be available for use in deployments beyond Block 
1.
    One of the early trades done on the Project 28 prototype was to 
determine the type of communication system used to transmit data 
between the towers and headquarters. The trade study recommended the 
use of satellite communications which avoided the lengthy process of 
getting frequency allocations needed for the microwave line of sight 
concept as well as cost and schedule for erecting repeater towers. The 
use of satellite communications included an inherent latency in the 
response time between command input from the user and response of the 
sensor in the field. This was particularly noticeable in the camera 
control. The system being deployed utilizes microwave line of sight 
and, where possible, fiber optic communication links. The use of 
microwave line of sight technology significantly reduces the response 
time of the sensor to the Border Patrol agent's input, and therefore, 
significantly improves the camera control performance.
    The radar integration on Project 28 the default command set 
provided by the radar manufacturer for integration into the COP. During 
integration testing it became apparent that additional command settings 
for ``tuning``the radar would be needed to address different weather 
conditions. Block 1 has integrated the full radar command set to the 
COP, and currently, has provided four ``user selectable'' weather 
settings for the operator.
    The Boeing Team has been in active communication and collaboration 
with the Border Patrol since 2007 to provide a system that meets their 
needs. The Block 1 configuration is the result of this input from the 
user in both formal and informal communications as well as a detailed, 
formal requirements definition process. The system, which will go 
through Systems Acceptance Test, will meet or exceed the requirements 
established for it in the contract and will have the look and feel 
determined by the Border Agents involved in its development.
    Question 3. One factor that likely contributed to the flaws with 
Project 28 was insufficient component testing prior to deploying the 
system into the field. The Committee understands that the Boeing 
testing facility in New Mexico was built to resolve many of these 
testing issues. In addition to the testing facility, what is Boeing 
doing differently this time to ensure that problems with Tucson-1 are 
identified and rectified in a timely manner?
    Answer. The processes used for P28 and for the SBInet Block 1 
system are significantly different. The P28 concept was developed by 
the Boeing Team during the proposal preparation period and involved 
only limited interaction with the customer as set out in the RFP. The 
RFP required bidders to propose a task order to build ``one or more 
modules'' (Section L-12, Subpart A.5, p. 88 of the SBInet RFP) of their 
proposed concept of operations that could be constructed in eight 
months time for a fixed price of $20 million. To meet this objective 
the Boeing Team used a ``Prototype'' approach to develop, integrate, 
and test the P28 system. The competition also provided that the 
government could award this task order to the winning bidder, ``without 
negotiations or discussions,'' which they exercised. Subsequent to the 
award, discussions with the Border Patrol were restricted by policy 
that was in place at the time.
    Development of the Block 1 system including the TUS1 deployment is 
being run as a standard development contract under the FAR. This 
includes a formal requirements definition process, trade studies, 
extensive testing of hardware and software at all levels, milestones 
reviews, etc. The Boeing Team has established a number of facilities to 
test system components, subsystems, and systems in a laboratory 
environment and in an environment representative of its deployment. 
Boeing built a Mission Analysis and Assessment Lab and a Rapid 
Application Development1 Joint Application Development (RAD/JAD) Lab, 
both in Arlington, Virginia. These labs enabled us to incorporate 
Border Patrol Agent inputs in both the geographic laydown of the system 
and as features in the design of the Common Operational Picture (COP). 
In addition we set up a System Integration Lab in Huntsville, Alabama, 
and a full system test facility in Playas, New Mexico to ensure 
component and systems tests were conducted in a controlled and 
geographically representative environment. While the situation and 
schedule of P28 did not accommodate component testing, the program now 
has the time and the facilities to thoroughly test the system at all 
levels. Likewise, the interaction with the users, which was severely 
limited in P28, is robust and healthy in the Block 1 development. All 
of this ensures that problems are identified early and addressed in a 
timely manner.

      Questions From Chairwoman Loretta Sanchez for Richard Stana

    Question 1a. In the past, GAO has discussed a number of reasons 
SBInet was at risk of failing to meet user needs and operational 
requirements or performing as intended. These reasons included 
ambiguous schedules, lack of clear definitions and baselines, 
ineffective testing, and poor management. Many of these same problems 
also affected earlier technology programs such as the Integrated 
Surveillance Intelligence System and the American Shield Initiative.
    What parallels, if any, do you see between SBInet and the 
Department's previous failed border security technology programs?
    Answer. There are some parallels between SBInet and previous border 
security technology programs. In February 2006, we reported that the 
Integrated Surveillance Intelligence System (ISIS)--a system composed 
of sensors, databases, and cameras--was subsumed into the American 
Shield Initiative (ASI).\1\ The goals of ASI were to address ISIS 
capability limitations and support the Department of Homeland 
Security's antiterrorism mission. We reviewed the ASI program and 
found, among other things, that the program had not established the 
people and process capabilities required for effective program 
management. While the program had defined and begun implementing a plan 
to manage program risks, it had not yet defined key acquisition 
management processes, such as effective project planning, and contract 
tracking and oversight. As a result, the program risked repeating the 
inadequate contract management oversight that led to a number of 
problems in deploying, and operating and maintaining the ISIS 
technology. At that time, DHS had decided to reevaluate ASI within 
DHS's broader border interior enforcement strategy, the Secure Border 
Initiative (SBI). In September 2008, we reported that DHS needed to 
address significant risks in delivering SBInet, including program 
planning issues.\2\ For example, we reported that ineffectively defined 
and managed SBInet requirements and ineffective management of testing 
activities increased the risk of SBInet not meeting mission needs and 
performing as intended, as well as the chances of expensive and time-
consuming system rework. Furthermore, in June 2009, the DHS Inspector 
General reported that the U.S. Customs and Border Protection (CBP) had 
not established adequate controls and effective oversight of contract 
workers responsible for providing SBI program support services.\3\ 
Furthermore, the DHS IG reported that CBP had not provided an adequate 
number of contracting officer's technical representatives to oversee 
support services contractor's performance. As a result, contractors 
were performing functions that should be performed by government 
workers.
---------------------------------------------------------------------------
    \1\GAO, Border Security: Key Unresolved Issues Justify Reevaluation 
of Border Surveillance Technology Program, GAO-06-295 (Washington, 
D.C.: Fed. 22, 2006).
    \2\ GAO, Secure Border Initiative: DHS Needs to Address Significant 
Risks in Delivering Key Technology Investment, GAO-08-1086 (Washington, 
D.C.: Sept. 22, 2008).
    \3\ DHS-OIG, Better Oversight Needed of Support Services 
Contractors in Secure Border Initiative Programs, OIG-09-80 
(Washington, D.C.: Jun. 17, 2009).
---------------------------------------------------------------------------
    Question 1b. Given all your findings, do you believe that the DHS-
Boeing partnership will produce an effective technological solution to 
secure the border within the next year?
    Answer. At this point, it is hard to tell whether DHS and Boeing 
will produce an operational SBInet technological solution, with an 
initial deployment, to secure the border within the next year. In 
February 2009, preliminary results of testing revealed problems that 
would limit the usefulness of the system for Border Patrol agents, 
including the instability of the camera under adverse weather 
conditions, mechanical problems with the radar at the tower and issues 
with the sensitivity of the radar. The SBI program office oversaw 
Boeing's efforts to rework and retest these issues, but as of May 2009, 
the SBI program office reported that they were still working to address 
some issues, such as difficulties aligning the radar. Initial user 
assessments conducted by Border Patrol officers comparing the 
performance capabilities of existing technology and new technology 
testing also showed potential issues with cameras and radar as compared 
with existing technology. Testing of the system has continued as DHS 
and Boeing move toward final acceptance, at which point the government 
takes ownership of the system. Following final acceptance, scheduled 
for January 2010 for Tuscon-91 and June 2010 for Ajo-1, the Border 
Patrol will conduct operational testing to determine how the system 
works while in use. Until this operational testing gets underway and 
its results become known, it will be difficult to know whether or not 
the SBInet solution will meet Border Patrol's needs.
    Question 2a. We understand that Boeing and the SBInet program 
office have begun to incorporate the independent validations of the 
Army Test and Evaluation Team into their testing and product 
assessments.
    How valuable are these independent validations for the SBInet 
program?
    Question 2b. Given the concerns you have raised about SBInet over 
the years, do you believe there should be a larger role for these 
independent assessments?
    Answer. While GAO has not conducted a review of the value of the 
Army Test and Evaluation Team's independent validations for the SBInet 
program, independent validations are generally very useful, as 
recognized by DHS itself in its acquisition guidebook. Such validations 
should provide objective and unbiased conclusions regarding the 
system's operational effectiveness and suitability from a source other 
than the program office, user representative, or vendor who might have 
an interest in presenting a more positive picture of the system's 
capabilities.
    Question 3. In your recent report on SBI (GAO-09-896), you point 
out that CBP has procured 40 Mobile Surveillance System (MSS) units to 
fill the gaps or augment existing border security technology, until a 
more comprehensive system can be deployed under SBInet. It is the 
Committee's understanding that while these MSS units aren't without 
their own limitations, they have radar and camera capabilities that 
meet or exceed those offered by Project 28 or Tucson-I. Given the 
amount of time and money that has been spent trying to deploy an 
operational SBInet system, does it make sense to look at MSS units or 
other technologies that might be of use to the Border Patrol?
    Answer. Until SBInet capabilities are deployed across the southwest 
border, Border Patrol agents are using existing capabilities, 
supplemented by more recently procured MSS units, but these do have 
limitations and are not a substitute for newer technology. As we 
reported in September 2009, Border Patrol officials said that the MSS 
units represent increased operational capabilities for the Border 
Patrol. In addition, in a user assessment, Border Patrol agents noted 
that the features of the camera to be deployed in Tucson-1 were 
insufficient in comparison to features of the Project 28 and MSS 
camera. However, MSS units are not connected to a Common Operating 
Picture and, thus, require an officer to operate each one. In addition, 
SBI program officials and Border Patrol noted that the units were not 
designed to be used 24/7 and that at any given time, a unit may not be 
operational because of the need for repairs. For example, as of April 
2009, 15 of the 23 units at Border Patrol's Tucson sector were 
operational. These MSS limitations underscore the importance of DHS's 
SBInet testing and evaluation activities in 2010. If SBInet is deemed 
not ready for deployment or if the technology does not meet Border 
Patrol needs, other options may need to be considered to assist in 
controlling the nation's borders.

                                 <all>

</pre></body></html>
